<html>
<title> - QUINCY LIBRARY GROUP FOREST RECOVERY ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                QUINCY LIBRARY GROUP FOREST RECOVERY ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 858

   A BILL TO DIRECT THE SECRETARY OF AGRICULTURE TO CONDUCT A PILOT 
 PROJECT ON DESIGNATED LANDS WITHIN PLUMAS, LASSEN, AND TAHOE NATIONAL 
FORESTS IN THE STATE OF CALIFORNIA TO DEMONSTRATE THE EFFECTIVENESS OF 
THE RESOURCE MANAGEMENT ACTIVITIES PROPOSED BY THE QUINCY LIBRARY GROUP 
   AND TO AMEND CURRENT LAND AND RESOURCE MANAGEMENT PLANS FOR THESE 
   NATIONAL FORESTS TO CONSIDER THE INCORPORATION OF THESE RESOURCE 
                         MANAGEMENT ACTIVITIES

                               __________

                     MARCH 5, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-10

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                       U.S. GOVERNMENT PRINTING OFFICE
 40-051 cc                    WASHINGTON : 1997



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ---------- ----------
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Jeff Petrich, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 5, 1997.......................................     1

Text of H.R. 858.................................................    57

Statements of Members:
    Chenoweth, Hon. Helen, a U.S. Representative from Idaho; and 
      Chairman, Subcommittee on Forest and Forest Health.........     1
    Fazio, Hon. Vic, a U.S. Representative from California.......     7
    Herger, Hon. Wally, a U.S. Representative from California....     4
    Hinchey, Hon. Maurice D., a U.S. Representative from New York     6
    Miller, Hon. George, a U.S. Representative from California...     3
    Vento, Hon. Bruce, a U.S. Representative from Minnesota......     2

Statements of witnesses:
    Blumberg, Louis, Assistant Regional Director, The Wilderness 
      Society....................................................    33
        Prepared statement.......................................    43
    Coates, Bill, Supervisor, Plumas County Board of Supervisors.    30
        Prepared statement.......................................    56
    Connaughton, Kent, Forest Supervisor, Lassen National Forest, 
      Susanville, CA, U.S.D.A....................................    12
    Henson, Ryan, Conservation Associate, California Wilderness 
      Coalition..................................................    35
        Prepared statement.......................................    41
    Jackson, Michael, Esq., Friend of Plumas Wilderness..........    31
        Prepared statement.......................................    69
    Lyons, James, Under Secretary of Natural Resources and 
      Environment, Department of Agriculture.....................    12
        Prepared statement.......................................    48
    Madrid, Mark, Forest Supervisor, Plumas National Forest, 
      Quincy, CA, U.S.D.A........................................    12
    Nelson, Tom, District Forester, Sierra Pacific Industries....    28
        Prepared statement.......................................    51
    Sprague, Lynn, Regional Forester, U.S.D.A. Forest Service, 
      San Francisco, CA..........................................    12

Additional material supplied:
    Quincy Library Group Position Paper: Fuels Management for 
      Fire Protection............................................    52
    Sierra Club: Report of the Chairman to the Board of Directors    67

Communications received:
    Joint letter from 19 signers dated February 26, 1997, to 
      Senators Boxer and Feinstein...............................    46
    Nelson, Tom: Letter of March 21, 1997, to Hon. Helen 
      Chenoweth..................................................    72


QUINCY LIBRARY GROUP FOREST RECOVERY AND ECONOMIC STABILITY ACT OF 1997

                              ----------                               



                        WEDNESDAY, MARCH 5, 1997

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:50 p.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (Chair of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee will come to order. The 
Subcommittee is meeting today to hear testimony on H.R. 858, 
the Quincy Library Group Forest Recovery Act of 1997.
    Under Rule 4[g] of the committee rules, any oral opening 
statements at the hearing are limited to the Chairman and the 
ranking minority member. This will allow us to hear from our 
witnesses sooner and help Members to keep to their schedules. 
Therefore, if other Members have statements, they can be 
included in the hearing record under unanimous consent.

 STATEMENT OF HON. HELEN CHENOWETH, A U.S. REPRESENTATIVE FROM 
 IDAHO; AND CHAIRMAN, SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health convenes today for a hearing on H.R. 858, the Quincy 
Library Group Forest Recovery and Economic Stability Act of 
1997. The bill was introduced last week by Mr. Herger of 
California with his colleagues, Mr. Fazio of California, Mr. 
Smith of Oregon, and Mr. Faleomavaega of American Samoa. I am 
pleased that at our first hearing the Subcommittee on Forests 
will consider this bipartisan legislation that was developed by 
a diverse group of people and interests.
    A portion of the area covered by this bill is in Mr. 
Fazio's district, and I am pleased that he is planning to join 
us today to testify on this legislation. Three members of the 
Quincy Library Group will also testify. In addition, we will 
hear from Under Secretary of Agriculture Jim Lyons, and 
representatives from two environmental groups from outside the 
Quincy Library Group area.
    Mr. Herger's legislation demonstrates that it is possible 
for people of very different interests to agree on objectives 
for the management of our national forests. They have also 
agreed on a plan for achieving those objectives.
    The Quincy Library Group is to be commended for developing 
solutions for us to consider today instead of asking Congress 
to referee over continued conflicts.
    I hope today that the Administration will add its support 
to the bill since Secretary Glickman and Under Secretary Lyons 
have been so supportive of this effort over the past several 
years.
    As our witnesses will explain, the Quincy Library Group 
Forest Recovery and Economic Stability Act of 1997 is the 
culmination of more than four years of work by those who have 
the most at stake in the management of the Plumas, Lassen, and 
Tahoe National Forests, that is, the people who live and work 
there. They are the people who care most about sustaining both 
the health of the national forests and the social and economic 
heath of their community. The legislation aims to implement a 
locally designed consensus-based plan to improve the condition 
of the national forests, reduce fire danger to the communities 
and still provide needed economic benefits.
    I commend Mr. Herger and the Quincy Library Group for all 
the hard work that you have done to bring this to fruition. I 
look forward to your testimony, and I welcome my two 
colleagues, Mr. Herger and Mr. Fazio, to the Subcommittee.
    The Chairman will recognize the ranking minority member 
when he arrives for any statement he may have. Mr. Vento, do 
you have a statement for the ranking member?
    [Report of Sierra Club may be found at end of hearing.]

   STATEMENT OF HON. BRUCE VENTO, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Vento. Thank you, Madame Chair. I ask unanimous consent 
of all Members to have the opportunity to put statements in the 
record, and I will place Mr. Miller's statement in the record. 
I understand Mr. Hinchey is on his way, but may have been 
delayed. I would just voice my interest in this proposal. I 
have heard variations of this proposal and the Quincy Library 
Group for many years, and I note that while the bill states 
1993, that the update is February 24, 1997. So the themes and 
variations of what might be the guiding principles over this 
2,400,000 acres--clearly a significant portion of the forested 
lands that are subject to the management of the professional 
Forest Service--are indeed substantial proposals.
    While I appreciate the interest of the local community and 
understand the good faith that they have worked on to come up 
with the proposal, I am very concerned, that as you said, these 
are national forest lands. I want to look to the remedies and 
the safeguards that have existed with regard to the forest 
management plans in the past. Insofar as they can be dealt with 
and look at ideas for pilots, I think that most of us would 
want to cooperate and go along with some recommendations along 
these lines, but certainly only with the assurance that the 
safeguards would be present in the legislation that deal with 
the environmental and social concerns that our forests serve on 
a multi-use purpose basis.
    I cannot stay for the entire hearing. We are late getting 
started because of conflicts that have occurred today, so I 
will have to leave shortly. I want to assure you that I intend 
to follow up.
    I know that there is a schedule that has been put out for 
the consideration of this bill in the full House in a month. If 
there is going to be a lot of intense work on it over that 
period of time on a bipartisan basis, perhaps we can come to 
agreement on the many questions that remain.
    The bill itself is rather simple. The plan itself since 
being modified in 1997, I think, has other ramifications that 
we want to look at very carefully, and I think that some of 
those are quoted in Mr. Miller's statement. I think Mr. Hinchey 
will be arriving, and he has a formal statement with regard to 
these matters perhaps which he will elucidate during the 
hearing process.
    Thank you, Madame Chairman.
    [Statement of Hon. George Miller follows:]

 Statement of Hon. George Miller, a U.S. Representative from California

    Madame Chairman, I want to commend the Quincy Library Group 
for their participation on forestry issues in their local area. 
I support public participation in the management of our 
national forests. However, the issues addressed by H.R. 858 
extend far beyond the interests of the 25 individuals and 
organizations who are part of the Quincy Library Group.
    I have serious concerns with the legislation before us 
today for several reasons. First, I think it is a dangerous 
precedent to be legislating the management plans for an 
individual forest or group of forests, which is in effect what 
H.R. 858 does. There are over 150 national forests. If we start 
down this path today, where will it end? Secondly, I don't 
think we should have management of national forests by 
committee, especially one made up of only local individuals. 
People across California, indeed across this country, have a 
stake in the management of the Plumas, Lassen, and Tahoe 
National Forests.
    Beyond those two broad policy concerns, I have particular 
problems with the bill itself. A project covering 2.5 million 
acres, with specific management instructions for at least the 
next five years, is hardly a test. It is a significant course 
of action with the potential for significant impacts on a large 
body of national forest land. This is an example of putting the 
cart before the horse. The Forest Service is told to 
immediately implement this so-called ``pilot project.'' Only 
then are they to begin the process to amend the forest plans to 
conform with what is already occurring. I am not aware that the 
Quincy Library Group proposal has ever been subject of an EIS, 
or the public hearing and other procedural safeguards of the 
National Environmental Policy Act.
    I find it odd that a bill that is supposed to deal with 
forest health speaks only to logging and fuels management. 
There is no mention made in the bill to ecosystem management, 
protection of watersheds or riparian areas, wildlife, 
endangered species other than the spotted owl, or recreation. 
The unwritten intention may be there but there is certainly no 
bill direction on these vital aspects of forest management. Key 
terms are also left undefined, left open to who knows what 
interpretation later.
    It is certainly not clear to me that this bill is 
consistent with the California Spotted Owl Process or the 
Sierra Nevada Ecosystem Project (SNEP). In fact, one of the 
important findings of SNEP was that the Sierra Nevada had to be 
looked at as a whole. Yet, here is the first bill to be 
considered on the Sierras after SNEP and we are back again 
dealing with the Sierra Nevada in pieces. We don't know what 
impact H.R. 858 will have on the three affected national 
forests, yet alone on the other six national forests of the 
Sierra Nevada.
    I for one am not ready to embark down this risky, untested 
policy path. Unless people can come up with a lot of good 
answers, I will not support this bill.

    Mrs. Chenoweth. Thank you, Mr. Vento, and as I remember 
watching your career as you built the National Forest 
Management Act back here and many of the amendments, it was 
interesting to know at that time what your concerns were about 
consensus building and so I am very pleased that this is our 
first bill to come before this committee.
    I do apologize that the committee is meeting late. It was 
unavoidable and this Chairman will be very particular about the 
time that we start unless it is unavoidable, and I cannot 
foresee that we would have these kinds of circumstances again.
    I would like to introduce our first witness. It is with 
great pleasure that I introduce my colleague, Wally Herger. We 
would look forward to Mr. Fazio coming in when he can arrive.
    I have great respect for their very hard work and diligence 
in bringing this bill to us. Mr. Herger, let me remind the 
witnesses that under our committee rules, they must limit their 
oral statements to five minutes, but that their entire 
statement will appear in the record.
    The Chairman now recognizes Wally Herger. Thank you.

  STATEMENT OF HON. WALLY HERGER, A U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Herger. Thank you very much, Madame Chair Chenoweth for 
your assistance in bringing this legislation to the committee.
    I would also like to thank our local Quincy Library Group 
civic leaders including Michael Jackson, Bill Coates, and Tom 
Nelson for being here today and for going on record to explain 
the reasons behind this bill.
    This is indeed landmark legislation which sets a precedent 
for cooperation and proactive agreement on both local and 
national levels. H.R. 858, the Quincy Library Group Forest 
Recovery and Stability Act of 1997, launches a forest health 
and economic stability management plan for three of 
California's national forests that I believe will set an 
example for other consensus-based groups around the nation.
    This plan represents an entirely new approach to managing 
our Federal forests. It was hammered out by a coalition of 
local environmentalists, local forest product industry 
representatives, and local government officials who set aside 
decades of gridlock over the environment to create a feasible, 
productive forest management plan. This proposal is a 
breakthrough for those of us interested in finding bipartisan 
and cooperative solutions to forest management issues.
    Perhaps for the first time, we have a local consensus group 
bringing local solutions to Washington instead of Washington-
forced solutions on local communities. This proposal takes the 
best science for forest management in the Sierra Nevada forest 
system and implements it as a proactive, common-sense plan that 
will remove the source of out-of-control, catastrophic 
wildfires, namely, over-dense vegetation and massive buildups 
of dead and dying trees and will through this process use that 
vegetation to produce cost-effective wood products, thus 
bolstering local economies.
    This Congress has talked about establishing a bipartisan 
dialog. We have talked about reaching across the aisle to find 
compromise solutions to our nation's most serious problems. 
This is our chance to make it work.
    This legislation is established by local grass roots 
compromise and may very well help set the tone for the rest of 
the 105th Congress. This legislation demonstrates that sound 
forest health and economic stability can coexist. The Quincy 
Library Group brings the best of both sides of the 
environmental issue together and delivers a shot in the arm 
needed by not just our national forests, but by the rest of the 
Nation as well.
    I am excited about this legislation and I am committed to 
doing everything I can to see that this authorizing legislation 
becomes a reality. Madame Chair, as you consider changes 
proposed by the Forest Service, I ask you to bear in mind the 
purpose of this legislation, to implement an existing forest 
plan based on the best available science as a priority pilot 
project on large enough scale to prove that forest health and 
economic stability are not mutually exclusive. It is imperative 
that we keep our eyes fixed on this mark.
    Thank you, Madame Chair and members.
    Mrs. Chenoweth. Thank you, Mr. Herger. Mr. Fazio is not 
here, and so he will testify when he arrives.
    Mr. Herger. Madame Chair, he did indicate to me he was here 
earlier. He indicated he did have another meeting, but that he 
was going to attempt to return, but I do appreciate his very 
strong cooperation in working with us on this, and again, one 
more indication of the bipartisan coalition that we have among 
all sides to make this process work.
    Mrs. Chenoweth. If Mr. Fazio does return, we will make 
every effort to have him testify.
    Mr. Herger. Thank you.
    Mrs. Chenoweth. Thank you very much. I would like to call 
on Mr. Vento for any questions he might have.
    Mr. Vento. Madame Chair, I think we have a long witness 
list. I guess we will have to get to the questions about cost 
and assurance of funding and what the ramifications are of the 
other parts of the plan for watershed restoration and habitat 
protection and so forth.
    Under the one feature, I assume that the plan does include 
the language on fire suppression, but that is the only aspect 
repeated in the bill.
    Mr. Herger. I would really like to hold off any questions 
for the experts who helped put it together.
    Mr. Vento. OK.
    Mr. Herger. We will be hearing from them, Mr. Vento, and 
they could answer much better than I could since they were the 
ones who actually put it together.
    Mr. Vento. Madame Chair, I think again I would be happy to 
defer until further witnesses appear.
    Mrs. Chenoweth. Thank you, Mr. Vento. Mr. Radanovich.
    Mr. Radanovich. Thank you, Madame Chair, and welcome, Mr. 
Herger, to the hearing.
    Mr. Herger. Thank you.
    Mr. Radanovich. Just briefly one question. I won't be able 
to stay for the whole hearing because I have a budget working 
group to meet with, but I wanted to make sure I was on record 
in full support of the Quincy Library Group. In fact, I want to 
start a library group of my own in the Sierra National Forest, 
so I am looking at this with great excitement.
    I want to state for the record, too, that I feel that the 
best tool for enhancing the environment of Federal lands is the 
local solution and the local talent providing a local solution.
    Would you be willing to venture to guess, under the Quincy 
Library Group plan after it is implemented and it takes place 
in the region, do you think that the environment will end up 
being more enhanced and more healthy than it would be under the 
current system right now?
    Mr. Herger. Again, the locals who worked on this, both 
environmentalists and the others will be able to answer this 
much better than I, but I will state that the answer is 
definitely yes.
    The most current science was used and it was used in such a 
way that--and I might mention why it is so important that each 
area have its own plan. Every area of our forests are very 
unique; even within California they are unique, but for 
example, up in Washington, there is much more rainfall as you 
well know, being my colleague in California, than we have in 
California. We are much more susceptible to forest fires in our 
area and to insect infestations than they are in other areas. 
The slope of the ground is different wherever you are, so it 
really takes a plan that is unique to that area to ensure that 
we have stream protection that we are really looking at the 
entire ecosystem.
    What is exciting is that we have done that in this area in 
parts of three national forests, and we have done it in a way 
that will supply the needed wood products for those that work 
in the wood industry in that area, so it is really a win-win-
win for us. The economy wins, the environment wins, the people 
who live there win, and ultimately, our nation comes out the 
biggest winner.
    Mr. Radanovich. Thank you. I applaud your work on the bill 
and am proud to be a co-sponsor. Thank you very much.
    Mrs. Chenoweth. Mr. Hill.
    Mr. Rick Hill. I have no questions.
    Mrs. Chenoweth. Thank you. I would like to recognize with 
unanimous consent, the ranking minority member, Mr. Hinchey, 
for any opening comments or statements.
    Mr. Hinchey. Thank you very much, Madame Chair. I do have a 
brief opening statement that I would just like to read into the 
record if I may.

 STATEMENT OF HON. MAURICE HINCHEY, A U.S. REPRESENTATIVE FROM 
                            NEW YORK

    Mr. Hinchey. First of all, let me begin by welcoming you in 
your new role as Chairman of the Subcommittee on Forests and 
Forest Health, and let me tell you how much I look forward to 
working with you. I believe that we will be able to accomplish 
a great deal together. As the ranking minority member, I look 
forward to having this opportunity to work with you and other 
members of this newly constituted Subcommittee.
    I look at the legislation before us today with great 
interest. I commend the Quincy Library Group for sitting down 
to work out the differences that existed among its various 
members. I am familiar with a similar process that was used in 
the northern forest lands study that I discussed with you, 
Madame Chairman, just last week, as a matter of fact.
    As national legislators, our responsibility extends far 
beyond a specific geographic area. We have to look at not only 
what this legislation means for the three particular national 
forests but also, of course, for the other Sierra Nevada 
national forests and the national forest system in its entirety 
as well.
    While I support competing interests sitting down to work 
out their differences, we must be very careful in this regard. 
We must assure that the public interest is adequately 
represented in this process. These are, after all, national 
forests, and all Americans have a stake in their management. We 
must also be careful to look at the possible precedent that 
could be set here.
    I think it would be a dangerous path for Congress to 
legislate the management plans for an individual national 
forest or group of forests, and in light of that, I think it is 
important that we determine what in this bill can and should be 
implemented administratively under existing law and therefore, 
what truly needs to be legislated.
    I hope this hearing will be useful in addressing the 
strengths and weaknesses of this legislation, and I look 
forward to the testimony of our witnesses on this subject, and 
I thank you, Madame Chairman, for the opportunity to be here 
with you at this hearing and to make the statement.
    Mrs. Chenoweth. Thank you, Mr. Hinchey. I know we are a 
little bit out of order, but at this time, I would like to 
recognize Mr. Fazio for your testimony.

    STATEMENT OF HON. VIC FAZIO, A U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Fazio. Thank you, Madame Chairwoman and members of the 
Subcommittee. I apologize for not being able to be here at the 
beginning. I do appreciate the chance to come before you this 
afternoon to support legislation intended to implement the 
Quincy Library Group forest management pilot program.
    As you know, the Quincy Library Group is a diverse 
organization established to take a creative, innovative, and 
most importantly, consensus approach to protecting our forests. 
It brought together the timber industry and the 
environmentalists as well as local officials to work out a way 
to enhance fire suppression as well as maintain a sustainable 
amount of timber harvest.
    The thinning approach that is being proposed in this 
legislation whereby smaller diameter trees are harvested and 
fuel breaks are created will serve both the environmental 
protection needs of forest health as well as help the local 
economy dependent on timber harvesting. This project in the 
Plumas, Lassen, and Tahoe National Forests could also 
demonstrate the Federal Government's recognition of local 
problem-solving.
    As we try to put this landmark agreement into legislative 
language, we need to foster the ongoing consensus process that 
made this agreement possible. The Quincy Library Group is a 
unique example of how diverse interests can come together 
through compromise, overcome obstacles which traditionally 
prevent us from reaching our mutual goals.
    I want to stress that the Quincy Library Group's efforts 
are unique and that they are concentrated on a local concern 
and involve a local process. It is our obligation at the 
Federal level to preserve this spirit of cooperation and 
reflect the ideals of the Quincy Library Group in their purest 
form.
    I want to commend my colleague, Wally Herger, for his 
sincere effort to translate the Library Group's proposal into a 
bill. This is not an easy task. As a co-sponsor of the bill, I 
support the concept of this initial draft, but I do share the 
concern of many that improvements can and should be made. I 
urge the committee to respect the consensus of the Quincy 
Library Group to include changes recommended by the U.S. Forest 
Service as well as other changes which may be deemed necessary.
    This is a fluid process. Just as the Quincy Group has 
withstood other pressures in the past and has proved its 
endurance and ability to work through difficult problems, we 
need to take that same approach. I look forward to working with 
Wally Herger, this committee, and Senator Feinstein in 
incorporating many of the changes that will be proposed, I am 
sure, today and subsequent to this hearing.
    I understand that the committee has already been receptive 
to adding the word ``catastrophic'' in front of ``designated 
areas'' as well as adding the phrase ``within the pilot project 
area.'' This helps to clarify when and where exceptions can be 
made to the restrictions on timber harvesting in protected 
areas.
    I would hope that the committee would also be receptive to 
incorporating other changes such as directing compliance with 
existing environmental laws, and the legislation should stay 
true to the library agreement which embraces the spirit of the 
California Spotted Owl report in the Sierra Nevada ecosystem 
project recommendations.
    Once again, taking a local agreement and putting it into a 
legislative statute is a challenge, and it takes time, but I 
believe we have a solid foundation for this legislation. What 
we need is time, time to work out differences, time to educate 
our colleagues on this important bill, and time to uphold the 
true process through with the Quincy Library Group that has 
worked to create this proposal. It will produce a product that 
is worth the time, because it may be a model for others to 
follow.
    I want to thank you for the opportunity to testify with my 
colleague, Mr. Herger, and while I won't be able to stay, I 
know that this is an effort on the part of this committee to 
fine tune a concept which I think we can all agree with.
    Mrs. Chenoweth. Thank you, Mr. Fazio. In order to get this 
train back on track, I think that I will just ask my questions 
now, and then we will open the panel for a second round of 
questions.
    Let me ask you--oh, are you leaving?
    Mr. Fazio. I would be happy to stay if you have a question 
for me.
    Mrs. Chenoweth. I have a question for you. This is a model 
that many other groups may hope to follow, groups in all of our 
States, and you are to be congratulated, both of you, for your 
efforts. Did you recall finding it difficult, Mr. Fazio, to get 
to this point?
    Mr. Fazio. I think it is not really hard for Members of 
Congress to get to this point. The difficulty is the people in 
the group itself who have worked so hard through the years with 
the national forest, with the local community leaders.
    People come at this from very different points of view. 
They have really worked very hard and they continue to have to 
work hard to see if they can take their concepts and put them 
in language that we can put in the bill. I think they have come 
a long way, and I think with Mr. Herger's continued patience 
and forbearance and the support of this committee, we can 
actually help confirm what is a good process and a very healthy 
start.
    Mrs. Chenoweth. Thank you. I would like to ask Wally, how 
long have you been involved in this process?
    Mr. Herger. We have been working on this for approximately 
four years now, so it has been a long process of again, all the 
different sides getting together and the reason they called it 
the Quincy Library Group is they met in the very quaint, 
beautiful town of Quincy, of a few hundred population up in the 
High Sierras of my district. They met in this library for many, 
many weeks over about a four-year period to finally come 
together and they went over every bit of the area within these 
three national forests and finally worked out a consensus. So 
this is a tremendous amount of work done by a number of people 
with very diverse philosophies on the environment that came 
together that are now very united on supporting this pilot 
program.
    Mrs. Chenoweth. Mr. Herger, I need to narrow my questions 
down with regard to the legislation. I want to ask you a two-
part question.
    How long have you been working on the legislation? Have 
there been many changes made to the draft legislation before 
introducing it last year and this year?
    Mr. Herger. Specifically, the legislation was introduced 
for the first time last year. We were working with the 
Administration and I am looking forward to having them appear 
before you here in a few minutes, but we had indications--as a 
matter of fact, I am interested in Mr. Lyons who is here today, 
who is one of our top leaders with the Administration, 
indicated back last September when we were going over it with 
him that he felt that this was something he could support. He 
has actually been to the area, and I want to thank him for 
that, but somehow, we keep going on month after month, and it 
is always tomorrow we are going to be with you, we are almost 
there. I am very concerned on how I hope this isn't going to be 
a pattern that we will see too long into the future. Certainly, 
we want to work with them. We have worked with them in every 
way we can, but again, I would just hope that the 
Administration is more serious than they have indicated over 
the last five months in coming up with a final line of this is 
what we want to support than what they have in the last five 
months.
    Mrs. Chenoweth. When did you first ask the Forest Service 
to provide input on your bill?
    Mr. Herger. The Forest Service was actually working with us 
at least through part of the Quincy Library Group, and again, I 
would rather have them describe it, but the Forest Service has 
certainly been around this process from the beginning in one 
way or another.
    Mrs. Chenoweth. Thank you, Mr. Herger. I would like to 
recognize Mr. Hinchey now for questions.
    Mr. Hinchey. I just perhaps have one question, and that is 
with regard to the enumerated purposes of the bill. They 
include four, as I understand it, one of which is that the 
Forest Service may not limit other multiple-use activities in 
order to carry out the terms of the pilot project. Is that 
accurate?
    Mr. Herger. I believe that is accurate.
    Mr. Hinchey. Do you see any potential for conflict here? If 
you are attempting to carry out the provisions of this bill 
which may to some extent at least be very admirable and may 
bring about favorable consequences, if you are unable to limit 
other activities in order to accomplish that objective, it 
seems to me that you might run into some conflicts here, 
because that seems to place within the bill a kind of 
inflexibility that might be less than helpful in achieving your 
objective.
    Mr. Herger. Mr. Hinchey, I would like to describe to you a 
much greater problem than the one you are posing to me now. 
Last year----
    Mr. Hinchey. There may be much greater problems, but at the 
moment, I am concerned about this one.
    Mr. Herger. Let me address this one, if I could. Let me 
address it in the best way that I can. Last year, we had the 
worst forest fires in California in modern history, 860,000 
acre of forest destroyed by catastrophic forest fires. Just a 
couple years before, we had the second worst forest fire season 
where we had over 550,000 acres of forest. Now, these are 
forests that are no longer forests. In these forests, there is 
no longer the California Spotted Owl, there is no longer 
Northern Spotted Owl. There isn't anything in these areas.
    In addition to that, in just the area I represent, 32 
mills--the 32nd closed about three months ago, so we are seeing 
our environment destroyed. Now, this is directly due in my 
opinion to Federal direction and Federal policy here in 
Washington that does not work in our area, directly responsible 
to that.
    We have forests that are too dense, that are 82-percent 
denser by Forest Service records than they were in 1928. We are 
seeing--where these forest fires are, we are seeing soil 
erosion, which has contributed in the flooding that we have 
where our stream beds are filled and which is destroying 
habitat.
    In essence, Mr. Hinchey, we have a system that is broke. We 
have a system that is not working at all, so we were going to 
try something brand new. I know this unique here in Washington. 
This may come as a major surprise to many of my colleagues, but 
we thought maybe if we got everyone together locally who lived 
there, most of which were born and raised there, who, believe 
it or not, care about this environment perhaps more than you do 
because they live there, that maybe they could come up with a 
solution that for a change would work. So this is not really my 
solution. This is not really my legislation. This is a group, 
and several are nationally recognized environmentalists who 
worked on this as well as everybody with a plan, and again, I 
would rather have you ask them these questions. They can much 
better give you answers than I, because they are really the 
ones who wrote this legislation.
    Mr. Hinchey. I appreciate the circumstances which give rise 
to this initiative, and----
    Mr. Herger. I would like to state--excuse me. Finish.
    Mrs. Chenoweth. Mr. Herger.
    Mr. Hinchey. Go ahead.
    Mr. Herger. When you finish, I have another comment, but we 
see something taking place now. I am hearing alluded to in your 
statements and Mr. Vento's statements a little bit in the final 
statements--well, anyway, I hear it when I talk to the head of 
the Forest Service here, those who are making the decisions 
anyway here in Washington, is that we have a group within the 
environmental community that are based here in Washington, not 
out in the district, because those are the ones I am 
representing, but the ones that are here in Washington that for 
many decades are making a living by the fact that the system 
isn't working, and I am very concerned when I see all of this. 
Well, manana, we are going to come up with an answer, you know, 
it is almost right but not quite. When I hear this from Mr. 
Lyons and the Administration, where we fail to see action being 
taken but yet they are well-meaning. They want to help us, but 
somehow, it is not quite right. Again, this really concerns me 
that we see these monkey wrenches being thrown in the system by 
people 3,000 miles away, most of which have never been to our 
area or really lack the concern that we have.
    Mrs. Chenoweth. Mr. Hinchey.
    Mr. Hinchey. Mr. Herger, I appreciate your response even 
though it doesn't answer my question or begin to. Nevertheless, 
you pointed me in a direction from which I might be able to 
obtain the answer, and for that, sir, I am grateful.
    Mr. Herger. As a matter of fact, I would like to invite you 
to come out to our district.
    Mr. Hinchey. I would be happy to do that.
    Mr. Herger. Good.
    Mrs. Chenoweth. Thank you, I would like to recognize Mr. 
Hill again, if you have any other questions.
    Mr. Rick Hill. Madame Chairman, I don't have any questions. 
Thank you.
    Mrs. Chenoweth. Mr. Vento.
    Mr. Vento. I think I will wait for others to try to give us 
the answers.
    Mrs. Chenoweth. If Mr. Herger would like to join the other 
members on the dais and participate in this hearing, I would 
like that very much.
    Mr. Herger. I appreciate that, Madame Chair.
    Mrs. Chenoweth. I would ask unanimous consent that he be 
allowed to do so. Without objection, so ordered.
    Mr. Herger. Thank you.
    Mrs. Chenoweth. Before we continue, I would like to explain 
that I intend to place all the witnesses under oath, and for 
the record, I have conferred with Mr. Hinchey on this practice 
and we have agreed to put all outside witnesses under oath that 
appear before this committee.
    This is a formality of the committee that is meant to 
assure open and honest discussion and should not affect the 
testimony given by witnesses. I believe all of the witnesses 
were informed of this before appearing here today. They have 
each been provided a copy of the committee rules in addition.
    I would like to explain the lights that are on the witness 
table. Each witness is given five minutes to testify. The 
lights are simply there to act as traffic lights. Green lights 
mean go, yellow lights mean your time is just about up, and red 
lights mean stop.
    I appreciate your cooperation, and be assured that your 
entire written testimony will be made a part of the hearing 
record today.
    I would like to introduce our second panel of witnesses, 
James Lyons, Under Secretary of Natural Resources and 
Environment for the Department of Agriculture; accompanied by 
Lynn Sprague, Regional Forester, from the Forest Service in San 
Francisco, California; Kent Connaughton, Forest Supervisor, 
Lassen National Forest, in Susanville, California; and Mark 
Madrid, Forest Supervisor, Plumas National Forest, in Quincy, 
California.
    Before we get started, if you will rise and raise your 
right arms. Do you solemnly swear and affirm under the penalty 
of perjury that you will tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you very much, and I would like to recognize our 
first witness, Mr. James Lyons, our Under Secretary of Natural 
Resources and Environment. Mr. Lyons, please proceed.

STATEMENT OF JAMES LYONS, UNDER SECRETARY OF NATURAL RESOURCES 
AND ENVIRONMENT; U.S.D.A; ACCOMPANIED BY LYNN SPRAGUE, REGIONAL 
 FORESTER, U.S.D.A. FOREST SERVICE, SAN FRANCISCO, CALIFORNIA; 
 KENT CONNAUGHTON, FOREST SUPERVISOR, LASSEN NATIONAL FOREST, 
   U.S.D.A. FOREST SERVICE, SUSANVILLE, CALIFORNIA; AND MARK 
 MADRID, FOREST SUPERVISOR, PLUMAS NATIONAL FOREST, U.S.D.A., 
                       QUINCY, CALIFORNIA

    Mr. Lyons. Thank you, Madam Chairman. It is a pleasure to 
be here today, and also to be honored to be the first to appear 
before you in your maiden voyage as chairperson of this 
committee, and I appreciate that opportunity. Mr. Hinchey, it 
is an opportunity as well for me to have a chance to visit with 
you. It is nice to see another easterner involved in setting 
forest policy nationwide, and I know your area very well. I 
grew up fishing there.
    I want to thank the committee for this opportunity to offer 
our views on H.R. 858, the Quincy Library Group Forest Recovery 
and Economic Stability Act, and as you have already noted, 
Regional Forester Lynn Sprague, Supervisor Mark Madrid of the 
Plumas National Forest, Kent Connaughton from the Lassen 
National Forest, as well as Jody Cook, who is the Deputy Forest 
Supervisor of the Plumas are with me today, and we will be 
pleased to answer any questions the Subcommittee may have.
    The Department of Agriculture supports the goals of H.R. 
858, and we certainly applaud the work of Congressman Herger, 
Congressman Fazio, and the Quincy Library Group and its 
willingness to enter into a constructive dialog to make this 
bill workable. We believe we are very close to that goal.
    Just last week, Forest Service officials including Mr. 
Madrid and Ms. Cook, met with representatives of Mr. Herger's 
office as well as members of the Quincy Library Group to 
discuss the bill. We think the discussions were very 
constructive and substantial progress was made; however, we 
feel we need just a little more time to fully consider the 
issues raised before the Administration can fully endorse the 
bill. I certainly hope, Madam Chairman, that we can do so 
within the timetable that you have set out for consideration of 
the bill.
    As you know, the world is a much more complex place today 
than it was even a few decades ago, and certainly nowhere is 
that complexity more evident than in the controversies and the 
complexities associated with management of the nation's 
national forests. Yet I would suggest to you, Madam Chairman, 
that the prescription for management of these forests which was 
laid down 90 years ago by the first chief of the Forest 
Service, Gifford Pinchot, is really rather simple, and if I 
may, I would like to quote to you from what was then the Forest 
Service manual. It was called the Use Book in 1907, and it was 
all of a quarter-inch thick. I daresay the Forest Service 
manual today would fill up this table.
    This is what Gifford Pinchot said about management of the 
national forests, and this section of the Use Book was entitled 
``Management by the People.'' He said, ``National forests are 
made for and owned by the people. They should also be managed 
by the people. They are made not to give the officers in charge 
of them a chance to work out theories, but to give the people 
who use them and those who are affected by their use a chance 
to work out their own best profit. This means that if national 
forests are going to accomplish anything worthwhile, the people 
must know all about them and must take a very active part in 
their management. The officers are paid by the people to act as 
their agents and to see that all the resources of the forests 
are used in the best interest of everyone concerned. What the 
people as a whole want will be done. To do it, it is necessary 
that the people carefully consider and plainly state just what 
they want and then take a very active part in seeing that they 
get it.''
    Mr. Pinchot went on to say, ``There are a great many 
interests on the national forests which sometimes conflict a 
little.'' That showed his foresight. ``They must all be made to 
fit into one another so that the machine runs smoothly as a 
whole. It is often necessary for one man,'' or one woman, I 
would suggest, ``to give way a little here, another a little 
there. But by giving way a little at present, they both profit 
a great deal in the end.''
    I think those were prophetic words, Madam Chairman, and I 
think in those few words, Gifford Pinchot captured the essence 
of what the Quincy Library Group is all about, and Secretary 
Glickman and I believe that the Quincy Library Group effort is 
worthy of our continued support.
    Before turning to the specifics of the bill, I would like 
to briefly review some of the findings of the Sierra Nevada 
Ecosystem Project report, or the SNEP report, because I think 
it amplifies what Congressman Herger said about the scientific 
soundness and the foundation for what is proposed by the Quincy 
Library Group.
    SNEP was developed by a team of independent scientists 
tasked by Congress with preparing a scientific review of the 
entire Sierra Nevada ecosystem. Their final report was 
transmitted to the Congress in June, 1996, and in fact, the 
ranking member of this committee, Mr. Miller, was a key 
proponent of that legislation.
    The SNEP report describes a number of approaches to 
reducing the susceptibility of the Sierra Nevada range to 
catastrophic fire. These include substantially reducing the 
potential for large, high-severity wildfires in both wildlands 
in what we call the wildland-urban interface and restoring 
historic ecosystem functions of frequent low and moderate-
severity fire. This can be accomplished by establishing what 
are known as defensible fuel profile zones characterized by 
relatively large trees with considerable diversity in ages, 
sizes, and distribution.
    The key feature would be the general openness and 
discontinuity of crown fuels within those forest stands so as 
to avoid the likelihood that high intensity fires might run 
through the crown. Once these zones have been established, a 
program of prescribed fire could then be introduced to restore 
the historic fire regime within those ecosystems.
    The Quincy Library Group Forest Recovery and Economic 
Stability Act would direct the Secretary to conduct a pilot 
program on designated lands in the Plumas, Lassen, and part of 
the Tahoe National Forests, in essence, to assess the 
effectiveness of certain resource management activities. The 
activities include construction of a strategic system of 
defensible fuel breaks, implementation on an acreage rather 
than on a volume basis of uneven-aged forest management 
prescriptions, and group selection of individual tree harvest 
to promote development of that all-age canopy that I talked 
about.
    This proposal in effect would implement key aspects of the 
SNEP report as I just described. We see substantial merit in 
testing these strategies, and we also believe that dialog can 
serve as a model for communities to use in seeking a more 
constructive solution to resource management conflicts in 
addressing local concerns without the necessity of site-
specific legislation in the future.
    Although much of this bill could be implemented 
administratively, we believe there is merit in legislating the 
Quincy Library Group pilot effort. However, I would want to 
state that we hope that this legislation is not viewed as a 
template for legislating solutions for specific forest 
management problems on a site-by-site basis.
    Upon a first reading of the bill, we did have a number of 
concerns, and I think we have done a lot of work with the 
assistance of Mr. Herger's office and members of the Quincy 
Library Group to address those. We continue to work on language 
to make clear that all existing laws must apply to the 
implementation of this experiment, and that the CASPO 
guidelines and the information included in the SNEP report 
should serve as a template to ensure that we meet all the 
standards that are laid out in those documents.
    Additionally, we believe that the pilot program should be 
subjected to a science-based evaluation at the midpoint and 
conclusion of the program. This evaluation should help 
determine if the assumptions underlying the program activities 
are valid and guide changes for management as new information 
is generated. In short, this whole project should be guided by 
what we call adaptive management as a basic philosophy of doing 
business.
    We have remaining concerns with the funding provisions in 
the bill. We intend to work with QLG and others to resolve 
these concerns. We have proposed several funding sources in the 
fiscal year '98 budget that if enacted, could increase overall 
the resources we need to implement projects such as the Quincy 
Library Group effort as well as similar work in other national 
forests in Idaho and other parts of the country.
    I won't go into the specific details of our budget 
proposals, but I would encourage you, Madam Chairman, to take a 
look at those.
    I would emphasize though that we believe without additional 
resources for the types of activities the Quincy Library Group 
prescribes, the allocation within a fixed overall budget is an 
inevitable requirement. However, we must not put ourselves in a 
position of robbing Peter to pay Paul, so to speak, by 
mandating reductions in programs like recreation, fish and 
wildlife, and other resource protection activities.
    We will seek efficiencies in how we spend our limited 
resources, and that might provide us additional resources to 
implement some of the projects called for in this legislation. 
However, ultimately, the Congress must help us make the 
investment that is necessary to achieve many of the goals and 
objectives that are laid out in this program and in our overall 
forest health goals.
    Let me summarize by saying that in the forest conference 
that the President convened in Portland in April, 1983, he 
challenged natural resource-dependent communities to develop 
collaborative and locally based solutions to controversies 
around public land management. The Quincy Library Group was up 
to the challenge, and in fact, they have been working for some 
time prior to the forest conference to engage in such a dialog 
to help improve and enhance the health of the forests that 
affected their communities, to strengthen the community, and 
perhaps most importantly, to demonstrate that these forests can 
be managed in a way that satisfies the needs of broad cross-
sections of forest users.
    For these reasons, the Administration is committed to 
perfecting the bill, and I would offer, Madam Chairman, that if 
it would assist, I am willing to offer myself to work 
personally in bringing together the parties that have many 
concerns with the legislation to see if we could not in fact 
achieve consensus and move forward with the legislation.
    Again, I want to thank you for the opportunity to appear 
before you today and look froward to addressing your questions.
    [Statement of James Lyons may be found at end of hearing.]
    Mrs. Chenoweth. I want to thank you, Secretary Lyons, for 
your testimony and we will proceed on to the questions now. I 
do want to remind the members of the committee that Rule 3[c] 
imposes a five-minute limit on questions, and the Chairman will 
now recognize the minority member, Mr. Hinchey.
    Mr. Hinchey. I'm not going to issue a statement so----
    Mr. Vento. You'll have the opportunity to ask questions.
    Mrs. Chenoweth. That is right, so you can ask any one of 
them for--these are all forest supervisors, so you can ask any 
one of them questions.
    Mr. Hinchey. Thank you very much, Madame Chairman, and 
thank you, Mr. Lyons, for your testimony.
    I note in your testimony you congratulate the Quincy 
Library Group for their attempt in coming together and working 
out this particular problem, and as Mr. Herger said in his 
statement a few moments ago, I think that that is a laudatory 
thing at the local level to come together and deal with 
problems that affect them locally, even when those problems 
affect national resources. To a certain extent, the point can 
be made that even though it is a national resource, people who 
are located right in that community are the ones who are most 
directly affected by it to one extent or another.
    In this particular case, as I understand it and correct me 
if I am mistaken, the Quincy Library Group consists of people 
exclusively from the local community, foresters, forest 
workers, forestry companies, and a local county official, I 
think those were the three people, the three groups that 
initiated the project, and there may be others involved.
    To what extent has the Forest Service or other national 
interest been involved in the negotiations between the various 
parties and to what extent have national interests been 
represented in the formulation of this particular legislation?
    Mr. Lyons. Mr. Hinchey, it would probably be best for me to 
allow members of the group to characterize the process that 
they went through, and they will certainly have an opportunity 
to speak in the later panel.
    My understanding through my experience in working with the 
group is that it does represent a broad cross-section of the 
community. It involves representatives from the forest products 
industry; local county supervisor Bill Coates; as well as local 
environmental activists who have been very much a part of the 
process, Linda Bloom and Michael Jackson, among others.
    It is, I think, a broad group representative of a very 
diverse community with diverse interests and concerns with 
regard to the uses of the national forest. It is true that it 
is the local community, and I think frankly that solutions to 
these issues more often than not are successful if they are 
generated locally.
    That does not diminish the importance of representing that 
these are national forests and national assets and you and I 
from the East Coast have as much value in and interest in, and 
opportunity to have say in the process as anyone else might.
    I think they have done a fairly effective job of attempting 
to come to grips with some very, very difficult and divisive 
issues and on that basis warrant our additional support. I 
think in the follow-up dialog we have in this legislation, 
others from outside the community who would like to have an 
opportunity to have additional input, and I think that 
opportunity needs to be provided, and that is why I offered my 
services in securing that.
    Mr. Hinchey. I take it from your answer then that as far as 
you know, there really was no involvement of the Forest Service 
or other national interests in the formulation of the 
legislation.
    Mr. Lyons. Initially, the Forest Service was not involved; 
however, I think over time, the Forest Service has been 
actively involved, and in fact, just last year, additional 
resources were allocated to the forests that are affected by 
this legislation to engage on an experimental basis some of the 
practices that are called for that would help to reduce fuel 
loading and to help move toward the kind of foresting 
conditions called for in the Quincy Library Group effort.
    So our involvement has progressed over time, and as I also 
indicated in my testimony, just last week, Mark Madrid and Jody 
Cook were part of a dialog with members of the Quincy Library 
Group and a representative of Mr. Herger's office to begin to 
discuss some of the issues that have come up, so we have had 
increasing involvement over time.
    Mr. Hinchey. Does the Forest Service take a position on the 
legislation at this point or are you still sort of watching it 
and looking at it?
    Mr. Lyons. It is the position that I stated at the outset. 
We think we have made considerable progress and we think we are 
close to achieving legislation that we can support, but there 
is some more work to be done, and we would like to engage in 
that dialog and bring this to closure.
    Mr. Hinchey. The bill speaks primarily if not exclusively 
to logging and fuel management. It doesn't seem to address the 
overall ecological system.
    It has been characterized as a local initiative on a local 
forest, but the fact of the matter is, as I understand it, it 
involves about 2,500,000 acres, two and a half national 
forests. The initiative here is one that would establish a 
broad ranging and important precedent if it were adopted. This 
is a lot more than a local activity affecting a local region, 
and furthermore, it seems only to address one particular aspect 
of the problems of an ecological system. It doesn't deal with 
problems of endangered species, it doesn't deal with ecosystem 
management, it doesn't deal with watershed, it doesn't deal 
with a whole host of very important issues. It focuses almost 
exclusively on timber harvest and fuels management. Does that 
represent in your mind a deficiency?
    Mr. Lyons. Well, there are two points I would make. I think 
this bill does set a precedent, an important precedent, and 
that is that local, diverse, and oftentimes conflicting 
interests can come together to work out their differences, and 
I think that is something to be applauded.
    I don't support the precedent of legislating specific 
solutions to specific problems, but I see this as a valuable 
pilot effort from which we can learn and then I hope implement 
administratively some of the remedies that come of this effort.
    This does apply to a broad scale, about 2,400,000 acres in 
concept, but the Quincy Library Group concept is about more 
than addressing fuel loads and thinning and salvage work. It 
involves the set-aside of the environmentally important areas 
for protecting threatened and endangered species. It involves 
watershed restoration work and a whole host of other things 
that are part of the larger Quincy Library Group proposal which 
is----
    Mr. Hinchey. But none of those issues are addressed in the 
legislation.
    Mr. Lyons. I think what I would suggest, Mr. Chairman, is 
that it is very difficult to translate into legislation how one 
implements this entire package and proposal. Again, I would 
suggest that in a subsequent panel, Tom or Michael or Bill 
might address in a broader context what is there.
    I would also tell you that we continue to move forward with 
our efforts to do the watershed restoration work that is 
necessary.
    In implementing this proposal consistent with the CASPO 
guidelines which are guidelines to protect the California 
Spotted Owl and the principles and concepts in the Sierra 
Nevada Ecosystem Report, we are also adopting a position of 
staying out of many areas that previously might have been 
considered for timber harvest but have been deemed too 
sensitive, so in that context, we are also adopting some of 
those more environmentally oriented principles that I think you 
are alluding to are missing here.
    I think all in all, it represents a fair attempt to try and 
develop a comprehensive ecosystem management strategy, and for 
that reason, we see it as a valuable effort to implement.
    Mr. Hinchey. Do you think this bill is a fair attempt at 
addressing a comprehensive ecosystem management strategy?
    Mr. Lyons. I think this bill would authorize us to adopt 
principles incorporated in the Quincy Library Group strategy 
consistent with CASPO, the forest plans, and SNEP, which in 
their larger context represent rather effective ecosystem 
management strategy for the Sierra Nevadas.
    Mr. Hinchey. I would be interested in carrying out this 
discussion a little bit further, because I would like to see 
where you find that in the legislation, Mr. Lyons.
    Mr. Lyons. Well, the legislation specifically refers to 
implementation of the Quincy Library Group project, and I think 
if you read that document, you will see that it is much more 
than simply salvage and thinning.
    Mr. Hinchey. Which document are you talking about?
    Mr. Lyons. The Quincy Library Group report, and I think 
Congressman Herger----
    Mr. Hinchey. But we are talking about the bill here before 
us now, aren't we? The report----
    Mr. Lyons. The bill referenced----
    Mr. Hinchey. [continuing]--isn't going to be implemented. 
This is legislation which the Congress is being asked to 
implement.
    Mr. Lyons. Well, the bill----
    Mr. Hinchey. The report has nothing to do with that.
    Mr. Lyons. No, it does, sir. The bill references the report 
and authorizes its implementation basically and that is the 
manner in which I have responded to the question.
    Mrs. Chenoweth. The Chairman would remind Mr. Hinchey and 
Mr. Lyons, you both ran red lights, so I need to try to keep 
things a little bit on time.
    Mr. Lyons. I will run one more red light, then I will be 
quiet. The bill specifically states that the Secretary of 
Agriculture, acting through the Forest Service, shall conduct a 
pilot project on Federal lands described in paragraph 2, to 
implement and demonstrate the effectiveness of the resource 
management activities described in subsection [d] as 
recommended in the Quincy Library Group proposal of 1993.
    It references the report and I think it highlights some of 
the specific management activities that are called for in that 
report, but we certainly see this as a project that is 
implemented----
    Mr. Hinchey. But Mr. Lyons, those management activities 
specifically delineated are forestry and fuels management. They 
are the only ones stipulated in the legislation.
    Mr. Lyons. They will be implemented in the larger context 
of the forest plan within which we are operating.
    Mr. Hinchey. That will be interesting to see.
    Mrs. Chenoweth. Thank you very much. Mr. Hill, do you have 
any questions?
    Mr. Rick Hill. Thank you, Madame Chairman. I would just 
comment to you that it seems to me that we ought to promote 
more collaborative process rather than more conflict in terms 
of developing forest management plans, and so I may disagree 
with my colleague's earlier comments.
    Let me just ask you, you say in your testimony this 
shouldn't be a template for the future. Do you mean with regard 
to the collaborative process or do you mean with regard to the 
drafting of legislation to implement that process?
    Mr. Lyons. I mean with regard to legislation. I don't think 
we want to be in a position where we have to legislate 
solutions to every problem we have on the ground. We ought to 
be better than that.
    Mr. Rick Hill. I would just comment that there is a sense, 
I think at least in Montana, that the process that we now use, 
while it provides for public comment, it doesn't provide for 
public input. So the consequence of that is that while the 
public may be allowed to express itself, but that expression 
isn't necessarily incorporated into any final resolution, and 
this process, it appears to me, is one that allowed public 
participation to result in actually the development of a plan. 
It seems to me that that is good. Would you agree or disagree 
with that?
    Mr. Lyons. I would agree, Mr. Hill. In fact, I think we 
have made great strides in the Forest Service in enhancing our 
ability to engage the public in a dialog over the use of their 
forests, but we have a ways to go. Certainly, what we have 
learned is the earlier the opportunity, the more open the 
process, and the greater the likelihood then that the community 
will become engaged and will become a part of the process of 
devising solutions that make good sense, make good sense for 
the communities, and with the input of the Forest Service and 
other resource management professionals make good sense from an 
ecological and biological standpoint as well.
    Mr. Rick Hill. In this instance, this process was always an 
open process; there was public scrutiny of the process. Is that 
how this came about?
    Mr. Lyons. Again, I think I would rather defer to the 
people who engaged in the process within the Quincy Library 
Group and they can better, I think, characterize how they went 
about developing consensus over time.
    Mr. Rick Hill. Fair enough. Let us talk about the cost of 
implementing the program. In your testimony, you suggested that 
the Secretary is prepared to allocate the resources.
    Have you done an evaluation of what the cost of the 
implementation of this will be in contrast with what the cost 
would be under the earlier forest management plan?
    Mr. Lyons. We do have some estimates, and if I could, I 
would defer to Mr. Connaughton or Mr. Madrid to give you those 
specifics.
    Mr. Rick Hill. That is fine.
    Mr. Madrid. The costs that we estimated in the bill to 
implement that is really no different than our day-to-day costs 
for doing business. Really what the bill does is it directs to 
more concentrated efforts on certain types of activities across 
the landscape, but in reality, the costs of doing these types 
of activities would be no different than our day-to-day 
activities.
    Mr. Rick Hill. So we are not looking at any additional 
costs?
    Mr. Madrid. Not in terms of actual costs to work on the 
ground. Costs may be in terms of what is available for us to do 
the work, so with the change in budgets and some other things, 
there would be some additional need for funding to achieve that 
level of activity.
    The level of activity doesn't just include harvest 
activities or fuel treatment. As part of the last couple of 
years of things that the Administration has done in support of 
this effort, we have dealt with watershed restoration. We have 
a long-term monitoring plan now that we are looking at to deal 
with this pilot program as well as looking at some different 
things of where we need to be in our land management process.
    Now, in the Plumas, we have initiated the review process to 
find out and see where we need to go in terms of potential 
amendment or revision to our forest plan, so there is more to 
that than just dealing with actual fuel treatment on the ground 
whether it be by harvest activity, prescribed fire or 
reforestation as the combination of all the different 
activities.
    But really, the day-to-day work that we do and the costs 
would be the same to implement this. It is just a difference in 
the magnitude of the effort we would need to undertake that 
way, so it is not any more expensive than any of the other work 
we do every day.
    Mr. Rick Hill. Thank you very much. Thank you, Mr. Lyons. 
Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Herger, I would 
like to recognize you for five minutes for questioning.
    Mr. Herger. Thank you, Madam Chair, and again, I want to 
thank our Forest Service for our forest supervisors from two of 
our forests for being out here. Lynn Sprague, I want to thank 
you for all the help and support that you have given us, and 
Mr. Lyons, I do want to thank you for being here, and I want to 
thank you for working with us.
    I was just going over some of my notes here. Evidently, 
since we have been working, just the two of us here, and I want 
to thank you for your expression of strong support from the 
beginning of this process, certainly from the time we 
introduced the legislation last summer, our individual work at 
that time, you mentioned that there were a few areas you wanted 
to look at, but you felt that you would be able to--if I am 
misrepresenting you, I am sure you will tell me.
    Mr. Lyons. Yes, sir.
    Mr. Herger. It seemed to me last September that it looked 
like you were--I think your comment was that you were going to 
be sending me a letter very soon in support. We were very 
close, and you got back to us I don't know how many different 
times, but we went back and forth, and I believe there is 
somewhere between 12 and 25 changes that we have already made 
in that original legislation that we introduced last summer 
that were because of your recommendations that were fine-tuning 
this legislation. I feel because of it, it is far better 
legislation today than it was when we originally introduced it 
last year because of again, yours and the Forest Service's 
input on this.
    I just want to make sure the record is clear. It is not 
like we are just now starting on this process. We have been 
working with it for some time, working in conjunction with you, 
so I guess we get back to the point. The concern that we have 
in Quincy and these communities in these three national forests 
as we saw the Cottonwood fire a few years ago where the town of 
Loyalton was threatened to be burned three different times, 
this is a serious situation. We have nothing left in an area 
that we live in if we don't move immediately.
    We had hoped originally that the Forest Service would be 
able to implement this and do it administratively, and I have 
heard you in our hearing and up in Oregon here, I don't know, 
three weeks, a month ago or so, your indication that you would 
like to see much of this done administratively. I believe that 
was a comment you made at that time, and I agree with you, but 
in these last few years, this has not been the case. We have 
not been able to get this program, and I would like to make a 
comment, too, on the record of some questions, some good 
questions that Mr. Hinchey had, and that was, are we just 
taking one aspect--are we only dealing with the fire area and 
are we not dealing--why are we not dealing with the entire 
ecosystem, and the fact is, the Quincy Library plan does deal 
with the entire ecosystem. All we are trying to do is implement 
one part of it that was done in context of everything.
    Just with that, I guess I get back to the point, please 
forgive me, Jim, for being a little frustrated, but starting 
last September, comments were, gee, maybe next week, we are 
going to have this letter, or gee, make this change. About 12 
or 25 changes later, your comment is almost precisely the same 
today as it was last September. Tomorrow, I think we are close 
but not quite there.
    I am sure that maybe it is a misperception, but it almost 
seems like the goal post keeps moving further and further back 
as we get closer to it, and how much more time do we need?
    Mr. Lyons. Well, Mr. Herger, let me respond by saying how 
much I appreciate your efforts to work with us----
    Mr. Herger. Thank you.
    Mr. Lyons. [continuing]--to try and perfect and refine some 
things. I think what is happening now with regard to the 
legislation is as it moves forward and as it is clear that 
there is an intent to proceed that others who have felt that 
they have not had an opportunity to have input, others, I 
think, as Mr. Hinchey alluded to, seek an opportunity to have 
an opportunity to convey their concerns and to see if in fact 
they are real and need to be addressed substantively or whether 
or not they can be addressed in some other way.
    That is the process that we engage in here in developing 
legislation, so I would suggest to you that from the standpoint 
of our interest within the Administration and we have come a 
long way, I think legitimately, others have raised some 
concerns, and I think we owe them the time to sit down and 
explain what we understand the bill to do. I think the dialog 
we had last week between Mark and Jody and your staff and 
members of the Quincy Library Group was most instructive in 
gaining an understanding of how this would be implemented and 
what the ramifications would be, and that led to further 
refinements.
    I think through that process, I hope we can bring people 
along to the point where there is general support. It would be 
ridiculous at this point in time to be left to fight over words 
when what we really need is action on the ground, and I would 
like to get us there.
    Mr. Herger. Thank you. Thank you very much for that. I 
might mention just in the last three years while we have been 
working with this, and I do see the red light, and I will close 
with this, but while we have been working to deal with this, 
probably almost 175,000,000 acres of forest land have been 
completely burned and devastated just in my State of 
California. I might mention that this is 175,000,000 acres 
where we have destroyed the habitat. We have destroyed habitat 
for the Spotted Owl, and we have virtually destroyed our stream 
purity, everything else that goes with that, so I would hope we 
don't continue talking too much longer, because as we do, we 
are losing a priceless resource that not only are we devastated 
by, those of us who live in these communities, but a national 
resource that our entire nation is losing. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Herger. I would like to just 
ask a little bit about the framework of the bill, Secretary 
Lyons. As I understand it, this bill will set in place 
legislation for the management of two and a half national 
forests. It will set in place a plan and then as the plan is 
implemented, it must fall under the National Forest Management 
Act and all applicable laws.
    There are several, which include the ESA and the Clean Air 
Act and the Clean Water Act, and so I don't see any way that we 
can reason that this legislation would not impose requirements 
under those environmental laws, including NEPA, right? Is that 
correct as you understand it?
    Mr. Lyons. As you phrased the question, I am not sure quite 
how to answer except to say that our understanding is that any 
activities implemented would have to be done so in a manner 
that is consistent with NEPA, NFMA, CASPO guidelines, et 
cetera, so that would maintain a consistent framework, so I 
guess we agree, yes.
    Mrs. Chenoweth. Good. I also wanted to ask you, Mr. Lyons--
Mr. Sprague, it is good to see you again. I saw you about a 
year ago.
    Let me ask you this. When we commonly and typically refer 
to resource management or timber management, when we talk about 
resource management, I think Mr. Hinchey's question needs to be 
answered. Is it strictly timber and fuel load or is it 
management for wildlife and watershed management or what?
    Mr. Sprague. Much of the project's activities envisioned 
under the bill under the Quincy Library Group Report of 1993 is 
focused on forest health, at getting us to a state with that 
250,000,000 acres that we have reduced the fire risk and the 
fuel loading such that we can carry out the rest of our 
ecosystem management responsibilities.
    The point is, right now we have, as Congressman Herger 
pointed out, serious fire risk and forest health conditions 
particularly on the east side of those forests, and that is 
what those projects are focused on primarily. It doesn't take 
anything away from the rest of the multiple-use and ecosystem 
responsibilities that these supervisors have under their forest 
plans.
    Mrs. Chenoweth. Mr. Sprague, tell me, how serious today is 
the fire situation in the Sierras?
    Mr. Sprague. It isn't real serious today but----
    Mrs. Chenoweth. Projecting to June, July, and August.
    Mr. Sprague. It is a continuing problem. We have had 100 
years or thereabouts of fire exclusion from our good fire 
control practices over that period of time, doing what at the 
time we thought was the right thing, what was the best science 
of the day.
    We now realize that we were overly aggressive in that 
activity, and we have what has built up over nearly a century 
of time that we can't deal with overnight. We have a continuing 
problem, and will have for a number of years to get these 
forest health issues under control, get the understory removal 
taken care of, getting the stands thinned out, so that we have 
vigorous stands that withstand both fire and insect and disease 
and others.
    Mr. Lyons. Madam Chairman, if I could answer that same 
question, in the context of the question that Mr. Hinchey asked 
of me earlier, the bill does of course focus on certain 
management prescriptions that are a priority. They are a 
priority for the reasons that Lynn just described, the 
necessity of reducing wildfire risk in ecosystems in which fire 
has been excluded for long periods of time.
    But rather than take my word or the Quincy Library Group's 
word for it, if I could, I would just want to quickly read you 
something out of the Sierra Nevada Ecosystem Report.
    Mrs. Chenoweth. Yes.
    Mr. Lyons. This is a report that was chartered, if you 
will, as a result of legislation that originated in this 
committee, and the legislation, of course, was authored by 
former Chief of Staff Leon Panetta as well as former Chairman 
Miller, and I had a little hand in drafting the legislation, so 
it is near and dear to my heart, too.
    I think everyone agrees that this is kind of the state-of-
the-art science in terms of the Sierra Nevadas and a very 
valuable contribution to our management efforts. But here is 
what the document says with regard to the role of fire as it 
pertains to other resources, wildlife, water quality, et 
cetera.
    It says, ``There is strong evidence that fire once was a 
major ecological process in the Sierra Nevada with profound 
influences on many if not most Sierran ecosystems. The success 
of fire suppression has altered and will continue to alter 
Sierran ecosystems with various consequences in regard to 
ecological function, new transcycling, forest structural 
development, biodiversity, hydrology, water quality. Many of 
the consequences probably have not yet been described. 
Regardless of what combinations of strategies are ultimately 
used, only wide-scale extensive landscape treatments, fuel 
treatments, which would be thinning, some salvage work and 
prescribed fire can approach the level of influence that fire 
once had on the Sierran environment.''
    It goes on to say that, ``Ideally, work on all goals should 
progress concurrently,'' and the report lays out some specific 
goals. It says the highest priority goals should be goals one, 
three, and four. Goal one is simply substantially reduce the 
potential for large, high-severity wildfires in the Sierra 
Nevada in both wildlands and the wildland/urban intermix, and 
that comes about from the kind of fuel loading treatments that 
are called for in the context of the Quincy Library Group 
report.
    So these activities, while they are highlighted in this 
bill, are done so because they have such a critical impact on 
the future health and vitality of all the resources within the 
Sierra Nevada ecosystem. We shouldn't lose sight of that.
    Mr. Sprague. One other quick comment on that, too, is that 
the bill as drafted would step up the pace with which we do 
this work on these two or three national forests, and I think 
the value there is from a forest management standpoint, is that 
we get a larger amount of work done so that we can begin 
monitoring and evaluating what we have accomplished so that we 
can learn if these practices are what we really need to be 
doing across the whole Sierra Nevada ecosystem.
    Mrs. Chenoweth. I just want to ask the members here if they 
would like to open this up for a second round of questions.
    Mr. Hinchey, did you have further questions?
    Mr. Hinchey. I suppose that Mr. Lyons and I could go on and 
on indefinitely, but I just want to make the point in response 
to what you just said and which I do not contest at all which 
is obviously the case in the report that you read, but the bill 
doesn't talk about the use of fire as a management tool. The 
only thing it mentions is defensible fire breaks; that is the 
only thing it mentions as a tool to deal with the problem of 
potential fire in the forests.
    Unquestionably, since we have prevented fire from occurring 
as it once naturally did, the ecosystem has changed, but the 
bill doesn't really deal with that. It doesn't mention that we 
might use controlled fire as a management tool. It only 
mentions defensible fire breaks.
    So while what you say is true, the import of what you are 
trying to convey, I think, is not quite there.
    Mr. Lyons. I recognize your concerns, Congressman, and I 
suggest that is one area in which we could clarify what the 
intended purposes are. I think the issue with regard to 
reducing fuels is one where we can't introduce prescribed fire 
in many of the areas in the Sierras because the fuel loads are 
so high, it will generate crown fires, and that is not what we 
seek to achieve.
    Certainly, that is an area where clarification could be 
provided.
    Mr. Hinchey. That just brings me back to my original point, 
Mr. Lyons, and that is that if you are going to manage this 
resource in a way that is different from the way that it has 
been managed in the past, or at least, if you are going to set 
up a management structure that is different from that which has 
existed in the past, and I think that maybe that is a good 
idea; it may be a good idea to do that, but if you are going to 
do it, you ought to do it comprehensively, and you ought to be 
managing it with regard to overall concern for the entire 
ecological system and all of those species which depend upon 
it. It ought not to be done exclusively as the bill seems to 
indicate it would be done in this particular case for timber 
and for fuels management.
    Mr. Lyons. We share the same goals and objectives. I think 
perhaps we just need to clarify the language in our purposes so 
it is clear that we are going to manage in an ecosystem context 
to achieve that goal.
    Mrs. Chenoweth. Thank you. Mr. Herger.
    Mr. Herger. Thank you, Madame Chair, and I want to thank 
Mr. Hinchey for that very good point. I might mention that the 
original plan, the whole plan and we wish we could incorporate 
all of it, does do precisely what you are recommending, but the 
concern was, we would have a tough enough job just getting this 
one little piece through Congress rather than trying to get the 
whole program.
    But I think what is important is that what we are doing was 
done, and again, we will hear more from our Quincy Library 
Group here in a few minutes, but all of this was done within 
the context of managing for the entire ecosystem, so this was 
not done by itself without considering that, and hopefully, 
that will come out later.
    But I think that is a point that is absolutely crucial in 
anything we do today is exactly what you are mentioning.
    I would like Lynn Sprague, our regional forester, if I 
could ask you a question. Many of our national interest groups 
have criticized the catastrophic event language in the bill 
claiming that it creates ``enormous loopholes which the Forest 
Service will exploit to deprive critical areas of interim 
protection,'' yet the bill requires preparation of a full 
environmental impact statement, the most environmentally 
protective process available under law prior to designation of 
a catastrophic event area.
    Mr. Sprague, in your opinion, is the requirement for a full 
EIS prior to entering a catastrophic event area an enormous 
loophole?
    Mr. Sprague. I would have to say no.
    Mr. Herger. Why would you say no?
    Mr. Sprague. Because we have authority to do that now 
without a special provision that doesn't always require a full 
EIS, so this would be more conservative than what our present 
practice is, and we have actually even suggested that this 
probably isn't even a needed element of this bill.
    Mr. Herger. Thank you. Mr. Lyons, did you have any further 
comment on this?
    Mr. Lyons. No, sir.
    Mr. Herger. Thank you, so you do not see this as a 
loophole, and I would presume, Mr. Lyons, you don't either.
    Mr. Sprague. I have not had any discussions about it. Your 
question is the first time I have had to address that other 
than my own concern about why is this in there.
    Mr. Herger. Right.
    Mr. Lyons. I would suggest, Congressman, this is one of the 
areas that we did discuss last week, and perhaps Mark could 
comment. Mark Madrid could comment on the outcome of that 
discussion.
    Mr. Herger. OK.
    Mr. Madrid. It was one of the topics that we discussed 
because there were some concerns just as you described, Mr. 
Herger.
    Mr. Herger. Right.
    Mr. Madrid. With OGC's help, we came up with language that 
would address that issue. The issue that we had at the time was 
the perception that there was going to be a need for two EISs 
and our process exists right now that already streamlines and 
puts it into one.
    What we did with OGC's help and with the QLG's help and 
then as well as your staffers, we came up with language that 
addressed that, that hopefully met OGC's concerns of the legal 
requirements for meeting that, so we hopefully have closed that 
loophole or at least the perception of that.
    Mr. Herger. The perception of it. I believe what I am 
hearing, and I don't want to put words in anyone's mouth, but 
let me just state this and correct me if I am wrong, this is 
more of a perceived loophole than it is really a loophole. I 
mean, we are talking about the most stringent environmental 
assessment that we have, and as Mr. Sprague did mention, if 
anything, this is more conservative in protecting the 
environment than what you already have and which the Forest 
Service already has at its disposal now.
    I see I have a little bit of time. This is so complex an 
issue that I think of myself--now, I grew up down in the 
agricultural area of my district, even though 80 percent of it 
is national forest. Just representing it takes myself several 
years to get up on the uniqueness of just the California part 
of the forest, and I would like to respond to another very good 
question of Congressman Hinchey in which he was wondering about 
why aren't we allowing more fire in.
    I think it was alluded to by you, Mr. Lyons. What has 
happened over the years, well-meaning managers have tried to 
prevent all forest fires starting probably in the 1850's when 
settlements first came to California, really intensifying in 
the earlier part of this century, and particularly the 1930's.
    Rather than having natural fire that would go through on a 
regular basis and do a thinning process, because we prevent it 
all with Smokey the Bear and well-intentioned people, now, we 
have these unnatural, very dense forests, so that now when we 
have a fire go through, rather than be a natural process that 
would burn the underbrush and thin out some trees and our large 
trees would remain, now we have a situation that is referred to 
where you have fire that will be a fuel jump and it will get up 
into the crowns and actually destroy all our trees, including 
the larger ones that normally would have lived.
    The purpose of this plan is to go in and attempt to begin 
restoring this forest as it was pre-settlement time so that we 
can go back to the natural lightning type of fires that would 
be a natural thing rather than the catastrophic type that we 
currently have that destroy everything, and that is what our 
goal is.
    Mrs. Chenoweth. Thank you, Mr. Herger.
    Mr. Herger. Thank you.
    Mrs. Chenoweth. I just have one question and that is for 
Mr. Madrid or anyone who may want to answer it.
    When Mr. Lyons was testifying, he pointed out that the SNEP 
or the Sierra Nevada Ecosystem Project suggests establishing 
defensible fuel profile zones by creating a more open forest 
structure and that once that is done, prescribed fire could be 
introduced.
    I want to ask you, Mr. Madrid, is H.R. 858 consistent with 
the SNEP report? Does it in any way contradict that particular 
plan of fire suppression or does it enhance it?
    Mr. Madrid. Well, SNEP dealt with things on a very broad 
scale all the way throughout the Sierra Nevada ecosystem. In 
terms of it being consistent or not, the principles that SNEP 
uses to apply to the ground are the very same principles that 
we would use to apply this kind of activity to get more of the 
fire-safe, not fire-proof, but fire-safe forests that we need 
to have. In that sense, you could say it is consistent.
    It is really an application of the principles involved in 
creating a more healthy ecosystem than it is whether it is 
consistent with SNEP or not.
    Mrs. Chenoweth. The point is that in the Quincy Library 
bill, we are not trying to implement SNEP; that is a whole big 
project by itself, isn't it?
    Mr. Madrid. That is correct, yes.
    Mrs. Chenoweth. Mr. Connaughton, let me ask you, without 
having the fuel breaks, there is no way that we could do any 
massive management by fire until we set forth those fuel breaks 
to be able to control the fires, is that correct?
    Mr. Connaughton. Actually, you have two related 
observations. One is, do we need the fuel breaks. There is 
great value in fact in having the defensible fuel profile 
zones. Fire is a management tool. Fire is in those ecosystems.
    In the Lassen forest, it is approximately 600,000 acres. If 
fire enters any of those 600,000 acres, it gets away faster 
than we can run away, and that is our problem. Until we can 
reduce the density of those fuels by cutting down the small 
trees, removing them through whatever means possible, then we 
face the likelihood of gigantic fires and it is a matter of 
when, not if.
    Once those fuels are reduced, then that gives us the 
opportunity to use fire as a management tool, either 
deliberately introduced into the forest or introduced through 
natural causes. Currently, approximately 70 percent of our 
forest fires are caused by lightning.
    If we have the proper fuel conditions, that is not a 
monumental threat to us, but with the current fuel conditions, 
it is.
    Mrs. Chenoweth. Thank you very much, and I know it is true 
in my forests, some of my forests in Idaho, and I am sure it is 
true in northern California, too, that management by fire was a 
tool that the Native American Indians used, so it has been 
around a long time. We are just trying to revisit those things 
that happened in history that are good.
    But I thank you all for coming such a long way. I wish we 
had more time. Mr. Secretary, thank you for your fine 
testimony, and I will excuse this panel and invite the other 
panel. Panel III is Tom Nelson, District Forester, Sierra 
Pacific Industries; Bill Coates, County Supervisor, Plumas 
County Board of Supervisors, Quincy, California; Michael 
Jackson, Esquire, Friends of Plumas Wilderness, Quincy, 
California; Louis Blumberg, Assistant Regional Director of the 
Wilderness Society, San Francisco, California; and Ryan Henson, 
Conservation Associate, California Wilderness Coalition, Davis, 
California.
    Please rise and raise your right hand. Do you swear and 
affirm under the penalty of perjury that you will tell the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Thank you very much. I now recognize our next witness, Mr. 
Tom Nelson, District Forester, Sierra Pacific Industries. Mr. 
Nelson.

  STATEMENT OF TOM NELSON, DISTRICT FORESTER, SIERRA PACIFIC 
                           INDUSTRIES

    Mr. Nelson. Good afternoon, Madame Chairman and members of 
the Subcommittee. My name is Tom Nelson, and I am a forester 
for Sierra Pacific Industries in Redding, California, and I am 
here today as a founding member of the Quincy Library Group, or 
as we refer to it, QLG, on occasion.
    It is our hope that you will help us implement the 
proposals of this group by supporting the QLG bill recently 
introduced by Congressman Herger, H.R. 858.
    I would like to take this opportunity for the record to 
thank a number of people for their invaluable assistance. 
First, I wish to thank Mr. Herger for his assistance and his 
leadership in carrying our bill. Next, I would like to thank 
Secretary of Agriculture Glickman and Under Secretary Lyons for 
their continued support of the silvicultural prescriptions 
described in the QLG's agreement of '93 which has been 
accurately translated into H.R. 858. I would also like to 
acknowledge and thank both Senators Feinstein and Boxer for 
their ongoing efforts to introduce a similar bill in the 
Senate.
    The ideas that are embodied in H.R. 858 actually started in 
November of 1992, when the three of us sitting here from the 
Quincy Library Group at this panel met together for the first 
time. It was a very unusual meeting, and between the three of 
us, we brought to the table a complete spectrum of opposing 
viewpoints on national forest management in California.
    Yet we soon found that we also shared a number of common 
viewpoints. We all cared deeply about the stability and the 
well-being of our communities, about our forested surroundings, 
and about the legacy that we leave to our children and our 
grandchildren. Moreover, we all agree that the current 
management strategies of the U.S. Forest Service for this part 
of California are unacceptable to each of the diverse 
viewpoints we represented. Business as usual will not meet 
anyone's needs.
    After several of these initial meetings with just the three 
of us, we decided to expand our discussions and bring in more 
ideas and participants. We wanted to see if others in the 
community shared our concerns. We did this, and it soon became 
apparent that a lot of members of the community not only shared 
our concerns, but they shared a common set of remedies with us.
    When I use the term ``we'' in this case, I am not referring 
to just others within the forest products industry. When I say 
``we'' in the context of the Quincy Library Group, I mean 
loggers, local environmental leaders, teachers, county 
government, organized labor, ranchers, road crews, fly fishers, 
biologists, and even a retired airline pilot who has developed 
a strong interest in fuels management strategies.
    Given the strong community support, we soon developed and 
agreed upon the QLG agreement of 1993. In many respects, this 
was our response to President Clinton's request at the Portland 
Forestry Conference, to ``insist on collaboration, not 
confrontation.''
    A central issue that binds us together is befitting an 
appearance today before this Subcommittee. That overarching 
issue is our concern for the health of the national forests 
which surround our communities. We are deeply concerned with 
the very real and very ominous risk for catastrophic wildfires 
within these forests. To demonstrate this, I would like to call 
your attention to a position paper the Quincy Library Group put 
out some time ago which is attached to your copies of my 
testimony.
    In this paper, we have tried to show that the present 
explosive situation, the potential for significant catastrophic 
wildfires, is getting worse, not better. At the current pace, 
without implementation of this Quincy Library Group bill, we 
estimate that it will take these forests 180 years before they 
even begin to reverse this trend.
    The Library Group has designed a comprehensive strategy to 
combat the rising risk of catastrophic wildfires, and that 
strategy is included in H.R. 858. The prime objective of our 
initial strategy is to isolate individual watersheds of 8,000 
to 12,000 acres with shaded fuelbreaks which have already been 
mentioned. These fuelbreaks would be about a quarter-mile wide, 
and they are not the bare-ground type of fuelbreak that you 
commonly associate with a power line or a gas line. They are 
shaded fuelbreaks. Our intent is not to stop major fires as 
they hit these fuelbreaks, but to force the fire down out of 
the crown so that firefighters have a better chance to control 
it. Put another way, our goal is not to stop the occurrence of 
wildfires, but it is to keep them at 10,000 acres, not 150,000.
    We estimate that with this strategy, it will take the 
Forest Service 20 to 30 years to completely reverse this rising 
trend of wildfire risk, but that we can live for the next five 
years with the Library Group bill in a much safer condition.
    I see the orange light is on, so I will skip some of my 
testimony, but I would like to tell you that the Library Group 
proposals that are embodied in this bill have received a 
certain amount of criticism recently, most notably from some of 
the national preservation groups. I would urge you to study 
these criticisms in light of the growing fear these urban-based 
groups seem to have toward coalitions which include their 
locally based affiliates.
    We welcome the support of any and all of these nationally 
based groups in our pursuit to pass H.R. 858, and it has 
already been pointed out that several changes have been offered 
up from our group. We will continue to try and accommodate 
these groups, and we will continue to work with anyone who is 
sincere in helping us get our proposals implemented, but we 
must also caution you that we cannot change the original intent 
and integrity of our agreement, and we hope that you will be 
cognizant of this as you go through mark-up, amendment 
proposals, and hearings.
    I see the red light is on, so I would like to thank you for 
this opportunity and I would urge your support of this bill so 
that we might begin the long uphill battle toward 
implementation of our agreement. Thank you, again.
    [Statement of Tom Nelson may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Nelson. I would like to call 
on Bill Coates, County Supervisor, Plumas County Board of 
Supervisors. Mr. Coates.

 STATEMENT OF BILL COATES, SUPERVISOR, PLUMAS COUNTY BOARD OF 
                          SUPERVISORS

    Mr. Coates. Thank you, Madame Chair. I appreciate being in 
front of this committee again.
    My statement, I think, will be reasonably brief. I started 
it off by wanting to say we attended, we listened, and we 
attempted to do, and I can assure you, Mr. Hinchey, that if you 
would have been in that process, you would have been very 
pleased with the effort put forth by people from all sorts of 
different backgrounds.
    I wanted to say that we studied, we worked, we argued, we 
fought, we met in a library so we wouldn't have any fist 
fights. We took the environmental organizations' suggestions on 
the maps. We asked them how the forest prescription ought to 
look, and they told us. We took that. We walked away from a 
logging sale that we could have encouraged because it broke our 
agreement. We folded in the Collins Pine method of forestry. We 
had 80 years of proof on the ground that that worked; it is 
much more impressive than the Forest Service lands right next 
to them. We took the stream restoration program that is now 
drawing visitors from around the United States as a leader in 
the United States. We adopted the SAT guidelines that came to 
us from the work done in the northern Spotted Owl country, 
supported by all the environmental groups, I believe. We helped 
to set up the DFPZ (defensible fuel profile zones) ideas which 
were kind of given to us by the fire folks as we started 
talking about real strategy and not further confusion.
    What we have done today is we have brought you a gift, and 
the gift isn't really a gold bar. It is an agreement. It is the 
agreement that President Clinton asked us to come up with in 
Portland. He told us to get out of the courtrooms and get into 
the meeting rooms and find a way to cooperate and get along 
with each other and do some listening as well as some talking. 
The gift is now yours. This is a good day for me. I am hoping 
to turn this over to you folks, and you figure out what to do 
with it.
    Besides addressing the declining forest health which almost 
every scientist will tell you is there and is a very real 
problem, there is another condition that is at risk. That is 
the condition of the decisionmaking process.
    We have done what the American system has suggested since 
this country was formed, and that is, when you have problems, 
try to get people together to talk it over and try to figure it 
out. We weren't trying to take it away from the whole rest of 
the United States. We were trying to include them when we could 
and take their ideas, but just as a tidal wave would probably 
bring more anxiety along the coast, the forest fires are 
bringing a higher level of anxiety for those of us that have to 
face those every summer.
    That process was kind of a conflict resolution process. We 
had hundreds and hundreds of meetings. It cost us personal 
money. It is lonely in the middle. We weren't invited to 
meetings all at once. We had to explain ourselves all over the 
place. Meanwhile, we were being studied and interviewed by 
Charles Osgood and the public television, and it has been 
draining and exciting, and it has been mixing some better 
forest health with some lessening fire danger which, if you are 
very strong in the environmental community, you have to be 
excited about because it helps with the animals and the water 
quality, and it also cuts down the explosive disturbance that 
we are calling fire.
    Now, around the United States, there is starting to be 
these groups popping up all over the place, and they are either 
a danger or they are exciting. I think they are exciting. I 
believe in them, and if we fail, there is a lot of those groups 
that will also want to quit because they know something about 
the struggle that we have gone through. If they see our 
failure, it will take some of the heart away from them. There 
is something else at stake here, and that is the process.
    Finally, I would like to thank this committee for its 
patience with our bipartisan nature. As most of you know, we 
are not liberal or conservative, Democrat or Republican. We are 
a mixture of all of those things, and I would particularly like 
to thank Congressman Herger for a ton of work, for Congressman 
Fazio and his work, the work of Senators Feinstein and Boxer, 
and particularly, too, the Secretary of Agriculture, Dan 
Glickman; the Deputy Secretary of Agriculture, Richard 
Rominger; and Under Secretary of Agriculture Jim Lyons. Those 
folks have saved us when we were getting tired and discouraged, 
kept us up and kept us going, and so this is our thanks to 
them.
    [Statement of Bill Coates may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Coates. That is very 
encouraging testimony. I would like to call on Michael Jackson, 
Esquire, Friends of Plumas Wilderness.

    STATEMENT OF MICHAEL JACKSON, ESQUIRE, FRIEND OF PLUMAS 
                           WILDERNESS

    Mr. Jackson. Thank you, Madame Chairman. My name is Michael 
Jackson, which is not always easy.
    I am a salmon lawyer, and in terms of the Spotted Owl, two 
members of Friends of the Plumas Wilderness filed the original 
Spotted Owl lawsuit in California that resulted in the CASPO 
report that the environmental movement believes rightfully is a 
long step forward.
    We certainly are not interested in destroying the 
environment in California. The only endangered species which we 
presently have in the Quincy Library Group area was listed 
about a week ago under the State endangered species act law. It 
was listed by me.
    This particular arrangement with the land is such that when 
the species was listed, the last 400 salmon in California that 
entered the Sierra, there was no problem with the Library Group 
approach because we had already set aside all of the land, from 
ridge top to ridge top, miles away from that species.
    That is the reason that you will find that this group has a 
good future is because we try to be proactive. We don't look at 
just what we have to deal with today, but we look at what we 
have to deal with tomorrow.
    I have worked most of my life to preserve species, and I 
know these forests and the people within them, because I have 
lived there my whole life. I have read every major scientific 
study concerning natural resources that applies to forestry or 
watershed management in California, and this is the single best 
program that I have ever seen in California.
    The land base is mostly part of the existing forest plan 
and is George Miller's ancient forest bill land base. I don't 
know how we can get any better than that in terms of the land 
base.
    In the course of doing this, the two gentlemen from the 
environmental movement that are sitting on either side have 
become long-time friends of mine. In the course of doing the 
Library Group, the two gentlemen sitting at the other end of 
the table have become friends of mine.
    The people of the west don't like each other, they don't 
trust each other, and they don't have any respect for each 
other, and that is what we are trying to deal with. The 
distrust and thirst for vengeance that presently exists were 
most recently elevated by the salvage rider. Our local salvage 
rider, Barkley, almost tore the Library Group apart.
    We want to publicly thank Congressman Fazio, the ancient 
forest community, and the timber industry for standing behind 
the principles of the Library Group at that most divisive time. 
This was a time in which we had no legal recourse, and the 
timber industry, when the sales were brought up right above 
those 400 fish that I was talking about refused to buy the 
sale.
    They needed timber then worse than they ever needed timber 
in the history of our community, but a deal was a deal, and so 
if you believe this to be simply a timber industry front, take 
a look at the history of Barkley, the first salvage rider sale 
recalled by the Administration in the United States, and 
realize that the timber industry had a lot to do with that.
    The Library Group is both a process and a substantive on-
the-ground solution. First the process. Bill Clinton did 
something right in Portland so long ago. When our members came 
home from various sides, they were energized, enthusiastic, and 
dedicated. ``Get out of the courtroom and reach consensus to do 
the right thing for both the land and the people.'' We worked 
hard. We studied hard. We traveled hard, because in rural 
communities, you have to go to Washington. You have to go to 
San Francisco to protect your community.
    One hundred of us have dedicated ourselves to this problem. 
What we need right now is time so that you all understand what 
this proposal is about. We need bipartisanship. We are not sure 
we have enough of it yet. The Library Group wants everybody to 
agree and let us tell you, we will be here as many years as it 
takes to convince everybody that this is the right thing to do 
on this land.
    We are in no hurry. We have already spent four and a half 
years and hundreds of thousands of hours, so if people ask you 
for time, please give it to them. If they ask you for changes 
that are simply making it clearer to everybody to end the 
distrust and the hatred, give them time. This process will 
stand any light that anybody shines on it.
    Thank you very much, Madam Chairman. I very much appreciate 
the honor of being the first bill considered in your 
Subcommittee.
    [Statement of Michael Jackson may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Michael Jackson. I would like to 
call on Louis Blumberg, Assistant Regional Director of The 
Wilderness Society in San Francisco.

 STATEMENT OF LOUIS BLUMBERG, ASSISTANT REGIONAL DIRECTOR, THE 
                       WILDERNESS SOCIETY

    Mr. Blumberg. Thank you, Representative Chenoweth and 
members of the committee for inviting me to testify here today. 
I am Louis Blumberg, the Assistant Regional Director of The 
Wilderness Society in the San Francisco office.
    I want to stress four points here. You have my written 
statement and I would like to request that that be included in 
the record. I want to stress four key points here.
    We support the general goals of the QLG. The results of the 
QLG process as expressed by H.R. 858 has failed to produce a 
public consensus. The bill has serious flaws and creates great 
uncertainty and Federal legislation is not needed to accomplish 
our shared goals.
    Now, first, we support the general goals of the Quincy 
Library Group. We, like most Americans, want to see healthy 
forests where there is less risk of high-intensity wildfire, 
where there is protection for wilderness areas, ancient 
forests, and riparian zones, and where there are livable local 
communities with viable economies.
    We also acknowledge that the Quincy Library Group has made 
significant success in strengthening the social fabric and in 
promoting harmony in local communities. As we have heard here 
today, the Quincy Library Group has drawn wide recognition and 
support for its process.
    However, and the second point here, in this instance, the 
collaborative process has failed to achieve a public consensus. 
National, regional, and other local interests in the Sierra 
Nevada and even in Plumas County have not been included, nor 
have their concerns been addressed. Collaborative processes are 
about local involvement, not about local control.
    Our efforts which we initiated recently to participate in 
the process have been given little consideration in the outcome 
here in this legislation, and our efforts have been derailed by 
the speed with which Congress is acting. I would point that as 
a demonstration of the failure of the process today is the 
broad opposition in California, not to the Quincy Library Group 
process because everybody can like the process. Who could not 
like the idea of people sitting down to work out their 
differences?
    We support it very much, but the outcome today is seriously 
flawed, and the bill is opposed by 19 environmental 
organizations. They are national groups, they are regional 
groups, they are statewide groups. they are grass roots groups 
in the Sierra Nevada, in Northern California, including a local 
group in Plumas County. So there is strong and uniform 
opposition to the bill.
    Now, the bill has many serious flaws. They are enumerated, 
most of them, in my written testimony. Fundamentally, the bill 
is surrounded by great uncertainty as to what would actually 
happen on the ground, where it would happen, and what the 
impacts would be. No environmental or economic analysis has 
been prepared for the bill as is required by the National 
Forest Management Act.
    Now, a couple of the key problems with the bill. Although 
nobody has been able to tell us, our rough calculations 
indicate that the bill would increase logging dramatically, at 
least double the current rates of logging, and far exceed the 
level that is estimated to be sustainable under the CASPO 
report.
    The bill also mandates an experimental and ill-defined 
management strategy. The DFPZ, the defensible fuel profile 
zone, is an experimental concept. It does not appear in any 
forest plan. The scientists in SNEP will tell you that there is 
no field data to show that it works.
    We think it is promising. We agree with the Library Group, 
and we would like to see it tested, but 225,000,000 or 
240,000,000 acres is way too vast an amount of public land to 
subject to this experiment. We would support a scientific test 
on one range or district to evaluate the efficacy of the 
program.
    One of the key problems with the bill is that it would 
override current laws, and we talked about this a little here 
today, and my understanding of the bill, the way I read it, is 
that by not requiring an environmental impact statement before 
we legislate a management plan, we would have in effect 
suspended NEPA. We would also be suspending the National Forest 
Management Act. Those two laws are checks and balances. They 
enforce protection of the environment and give the public the 
opportunity to understand what is going to happen on the 
ground.
    Furthermore, Madame Chairman, you mentioned that the SNEP 
process is a bigger process. Right now in California, there is 
a regional planning exercise going on that is derived from the 
SNEP and the California Spotted Owl process. We think that H.R. 
858 would preempt this process and would cover one-third of the 
entire area being studied for this planning process.
    The other problems are listed in the bill, but let me get 
to the final point here. Federal legislation is not needed 
here. The existing forest plans have the flexibility to do the 
type of management activities and if, as people have asserted, 
that all activities will comply with all laws, then why do we 
need another law?
    Currently, the logging program in the area is quite high. 
The Lassen National Forest cut more timber last year than any 
national forest in the State of California. Congress could use 
the appropriations process to direct that funds be used to test 
the QLG program on one range or district.
    We believe Federal legislation is a serious step, and in 
this case, would put aside the National Forest Management Act 
and the National Environmental Policy Act. We believe that it 
should be used carefully and only when needed.
    The public has a right to know and Congress has the 
obligation to fully understand the impacts before legislating 
any forest management policy.
    In summary, because of the many flaws and the uncertainties 
surrounding it, because the bill is not needed, The Wilderness 
Society must oppose H.R. 858. We are willing to work with the 
Library Group and others to establish a broader, collaborative 
process that involves all stakeholders to try to come to some 
agreement on how these lands should be managed. We think there 
is some merit to some of these programs. Thank you.
    [Statement of Louis Blumberg may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Blumberg. I would like to 
call on Ryan Henson, Conservation Associate, California 
Wilderness Coalition, Davis, California. Mr. Henson.

 STATEMENT OF RYAN HENSON, CONSERVATION ASSOCIATE, CALIFORNIA 
                      WILDERNESS COALITION

    Mr. Henson. Madame Chairman, thank you for this opportunity 
to testify here today before the Subcommittee on Forests and 
Forest Health regarding H.R. 858.
    We have long supported our friends in the Quincy Library 
Group and their goals of ecosystem protection, restoration, and 
community stability. Much of my sympathy and support for the 
efforts of the Quincy Library Group arises from the fact that 
my father, mother, and grandfather worked in the timber 
industry in Mendocino County, California, and I would have been 
pleased when I lived in Mendocino County to have a 
collaborative forum like the Quincy Library Group to bring 
people together with careful, reasoned debate and mutual 
respect instead of tearing people apart with divisive rhetoric 
and animosity.
    I have gotten lots of report of Quincy Library Group 
meetings, and I do understand that there is a lot of very 
serious debate and sometimes animosity, but I am always 
surprised that at the end of the day, they all come out still 
shaking hands.
    I believe we should consider the Quincy Library Group 
collaborative process and vision and H.R. 858 at least at this 
point, as two different entities. In our view, the current 
draft of H.R. 858 reflects neither the full spirit nor in all 
cases the letter of the Quincy Library Group proposal.
    It is imperative that Congressman Herger, the Resources 
Committee, and most importantly of all the Quincy Library Group 
work carefully and openly to ensure that H.R. 858 and any other 
legislation adopting the mantle of the Quincy Library Group 
vision be consistent with that vision.
    We have identified six areas where the bill should be 
modified to achieve the ecological and social goals of the 
Quincy Library Group proposal. Regarding Section 2[c][2], that 
is the catastrophic events exception, we appreciate the fact 
that some modifying language has been added over the last 
couple of weeks. We do recognize that. We would like to ensure, 
and Mike Jackson and I were just going over this over in the 
corner a couple hours ago, that other sensitive areas of 
interest and concern to both members of the Quincy Library 
Group and the environmental community and the community 
generally are protected from that potential serious loophole.
    Section 2[d] regarding resource management activities, we 
believe that should be modified so that it is made clear that 
the thinning, logging, and other programs authorized by the 
bill will be consistent with existing environmental laws and 
policies.
    Perhaps that is purely symbolic, perhaps it is unnecessary, 
but considering the events of the past year or more, I would 
feel very good to see it in there.
    Section 2[d][1] and [2] may actually, as Louis Blumberg 
pointed out, double the amount of logging authorized in the 
pilot project area, this two and two and one-quarter national 
forests. We would like to see the amount of logging capped at 
what the California Spotted Owl science team recommended for 
the affected forests.
    Section 2[e] regarding cost effectiveness should be deleted 
or at least altered so that cheaper but perhaps more harmful 
projects are not authorized over slightly more costly but more 
benign projects.
    Section 2[f] regarding other multiple-use activities should 
be altered to eliminate the possibility that the Forest Service 
will use this provision to authorize timber sales in addition 
to the projects authorized in section [d].
    Section 2[g][3] regarding funding flexibility should be 
stricken since it may allow the Forest Service to reduce 
funding and other necessary programs to fund the thinning and 
logging described in section [d].
    Now, we have been told by many members of the Quincy 
Library Group and also by many congressional staff members that 
most of our concerns have already been satisfied one way or 
another in the legislation. The problem is, we haven't had the 
time to sit down and have folks, both congressional staff and 
members of the Quincy Library Group show me where these things 
are, and as Mike mentioned, I would like to have that time.
    We have worked and are willing to work with the Quincy 
Library Group and members of Congress to bring about these 
changes as well as other changes that members of the 
environmental community or the wider community would like to 
see made.
    We think this is a hopeful process and a welcome process, 
and we would like to see it move forward in a very careful and 
deliberative way that does honor to the Quincy Library Group 
tradition.
    Thank you, Madame Chairman and members of the Subcommittee, 
for this opportunity to testify.
    [Statement of Ryan Henson may be found at end of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Henson. I would 
like to open the time for questioning now with Mr. Hinchey.
    Mr. Hinchey. I don't have any questions at this time, 
Madame Chairman, but I would like to express my appreciation to 
the panel members for their coming here and for their efforts 
in trying to solve this very knotty problem, and I have a much 
deeper appreciation for the complexities of this problem after 
hearing your testimony, each of you representing your diverse 
points of view.
    I just want to thank you very much for the extraordinary 
effort that you have put in over the last four years, along 
with your representatives in trying to resolve this issue, and 
I think that we should pledge ourselves to try to work with you 
as you continue to work this problem out to try to bring about 
a solution that is acceptable in some way to everyone. My 
deepest thanks to you.
    Mrs. Chenoweth. Thank you, Mr. Hinchey. Mr. Herger.
    Mr. Herger. Thank you, Madame Chair, and this is an 
exciting process. It is an exciting process, I think of the 
years of the community that I represented that has been so 
polarized with the environmental group on one side and those 
who are trying to earn a living on the other side, in these 
very much timber--excuse me. I could have worded much better, 
but those who have worked in these forest product economy-based 
communities to see just how they have gone at heads for so long 
and be able to come here and be able to work with someone who 
had been on perhaps the other side. Mr. Michael Jackson and 
Linda Blum, some couple people who are nationally recognized 
within the environmental community, and to see us be able to 
work together really brings a degree of joy to this job and 
responsibility that I have that I had not ever been able to 
experience before, and I want to thank you for everyone who has 
been involved, and of course, Bill Coates and Tom Nelson and so 
many others. I think you mentioned 100. It really is something 
that is exciting.
    Mr. Blumberg, if I could ask you and I have the bill here 
in front of me, have you had an opportunity to read the bill?
    Mr. Blumberg. Yes, I have.
    Mr. Herger. Could you tell me where, on what page it is 
that it indicates that environmental laws have been suspended?
    Mr. Blumberg. What the bill does is, it mandates an 
alternative forest management plan that was developed by a 
group of citizens, in this case, in Quincy, California. They 
developed that plan themselves; that is the agreement.
    The National Forest Management Act is our Federal law that 
governs the development and the implementation of planning for 
our national forests. So rather than going through the 
procedures mandated by Federal law in the National Forest 
Management Act which also involve the National Environmental 
Policy Act with a companion environmental analysis, this 
particular group has said this is the plan we want to have, and 
what Congress is attempting to do with H.R. 858 is say, we are 
going to set aside the National Forest Management Act, and we 
are going to set aside the National Environmental Policy Act. 
We are going to adopt this plan here as our national forest 
management plan, and then we will worry about the analysis 
later on when we go out to cut trees or we go out to do 
defensible fuel profile zones. So what the bill has done is 
that it has set aside those two important laws.
    In another respect, the CASPO guidelines which have been 
amended to the forest plans were, as you know, designed to 
protect wildlife habitat and reduce the risk of high-intensity 
wildfire. Those guidelines are very strict. They are 
quantitative, they are numerical. When you come to the concept 
of DFPZ (defensible fuel profile zones), as I said in my 
testimony, that is an experimental term of which there are no 
standards and guidelines.
    We are quite concerned, and we are seeing this in other 
national forests in the Sierra Nevada. We are seeing the 
Sequoia National Forest, the Stanislaus National Forest, all 
interpreting this concept of DFPZ in different ways.
    One forest wants to cut all the trees whether they are 30 
inches or bigger or not, so we are seeing an abuse, if you 
will, from our perspective of the concept of DFPZ. The bill nor 
the 1993 agreement nor the forest plans define what is actually 
going to happen with the DFPZ, so again, that is stepping 
outside of the normal planning process that is set up by 
Federal law.
    Mr. Herger. Mr. Jackson, if I could ask you perhaps to, 
someone who has----
    Mr. Jackson. Certainly, since it is my profession. My 
understanding of the law is that unless the words 
notwithstanding any other provision of law apply and we have 
all been through that road and we don't want to go down it, all 
of the existing environmental laws apply to this program. I am 
sorry that Congressman Hinchey left, because essentially, what 
we are legislating here is something that we have been asking 
to do through the forest plan process since 1993.
    The idea is that it is time to amend our forest plans by 
law, and we want to get on with it, but as the Spotted Owl 
experts in the Sierra Nevada ecosystem project say, as we have 
stumbled through all of this learning about ecosystem 
management, the timber industry is on its knees. There is no 
need for that. We can do some useful environmental work so that 
by the time these plans are amended to move from the logging of 
big trees to the logging of the smaller material, we have an 
economy able to take care of the new markets.
    We are not asking for any dispensation and I disagree with 
Louis completely.
    Mr. Nelson. Congressman Herger, may I add to that as well? 
I realize the red light is on. I want----
    Mr. Herger. Madame Chair, with your permission.
    Mrs. Chenoweth. Without objection.
    Mr. Nelson. I have two points on my driver's license 
already, so I am real cognizant of the red light here.
    To add to that, if we did in fact propose to do half of the 
things that Louis just proposed or his interpretation of our 
bill, I can assure you that I would not be sitting here and I 
know that Michael Jackson would not be sitting here.
    Quite frankly, the response from the Forest Service to that 
almost identical question was, they didn't even think we needed 
to do anything with the forest plan, that everything that we 
were proposing was in conformance with their existing plans.
    We would probably agree with that, but we are so sure that 
our proposals when compared to any other proposals out there 
are going to be shown as superior that we have actually asked 
for this additional round of NEPA.
    We would like to see an amendment. We have a five-year 
proposal before you in this bill. We would like to see this 
analyzed for a much longer term, and we would like everyone to 
take a look at it. We welcome anyone who wants to compare it 
with in open forum, because you won't find anything better than 
what we have proposed here.
    But I wanted to make the point that we would like to have 
that so that we don't get stopped from implementing ours by 
someone enjoining our procedure, so we feel we are somewhat 
insured by going through that procedure as well.
    Mr. Herger. Maybe back to Mr. Jackson, you are a lawyer, 
you are an environmental lawyer. Is the Quincy proposal 
consistent with the law and the plans in the two national 
forests or in these three national forests?
    Mr. Jackson. Yes, sir, it is. The present plans call for 
clear-cutting about 12,000 acres of land and the removal of 
360,000,000 board feet of timber from the two forests. The 
present operation of the Plumas National Forest in green sales 
is 13,000,000 board feet in a forest that traditionally cut 
about 170,000,000. This is well within the existing forest plan 
limits.
    Mr. Herger. One last final comment. Mr. Henson, you 
mentioned how you grew up in a community with a forest product 
community and how you wished in your community you had seen 
what we have seen in the Quincy area where we have had all the 
sides get together.
    I guess my concern would be that if we are doing what I 
believe I heard you say you wished had happened in your 
community where we have had for four long years with countless 
thousands of hours that have been spent with people who are 
knowledgeable on both sides, if we are unable to implement a 
plan that they come up with after four years, I wonder just 
where we would ever be able to introduce a plan that we had 
come up with.
    Madame Chair, I thank you very much and I thank all of our 
people for participating and all the countless hours that you 
have put into this process, particularly the members of the 
Quincy Library Group.
    I guess there was a question here that we hadn't involved a 
national environmental group. Would you like to comment on 
that, Mr. Jackson? Did we----
    Mr. Jackson. Sure. I may as well thoroughly drive myself 
out of the movement.
    The National Environmental----
    Mr. Herger. Maybe I should ask one of the others.
    Mr. Jackson. That is all right.
    Mr. Herger. My understanding is that we did----
    Mr. Jackson. I will take it. Louis and I had our first 
conversation about the Library Group in 1993. He first saw our 
maps in 1988.
    There has been no secret from the national environmental 
movement in regard to this. Their position seems to be and they 
can speak for themselves, but as I understand it, they support 
what we did in the agreement, they support our process, but 
they are still uncomfortable that the bill truly reflects the 
broad nature of our process.
    That is why I said that I would really hope that you and 
this Subcommittee, because I think this first bipartisan thing 
is important, will allow us time to respond to these folks.
    I don't think we are going to agree to change the substance 
of what we are doing, but certainly, we are interested in 
language that is very, very specific, and given the history and 
the hard feelings, I think it is a reasonable request on their 
part.
    Mr. Herger. Thank you very much and again, I want to 
mention that everything I hear is that we have been involving 
everyone from the beginning, and I again want to thank all of 
you for appearing here today.
    Mrs. Chenoweth. Thank you, Mr. Herger. Thank you very much. 
Mr. Jackson, I am not through with you yet.
    I know your patience must be wearing out, but I do have 
some questions. Mr. Coates, Mr. Henson had some concerns. Do 
you feel that these are concerns that you can address pretty 
easily and have you been working with Mr. Henson?
    Mr. Coates. Actually, I don't know Ryan. I am kind of 
getting to know him today. Some of the things that he 
mentioned, today would be the first day that I have been 
exposed to them.
    We are very willing to take a look at that and none of them 
sounded like deal-breakers. I think we can accommodate that.
    I was going to say, pertaining to some of Louis' comments, 
that he and I probably don't agree on lots of things. He gets 
paid for conflict and I, like some of you folks, get paid to 
make things work. I am hoping that one of these days, he has a 
plan that I can get behind that addresses the health problem in 
the Sierras at a certain pace that gives us a chance to work 
our way back to pre-settlement condition, and I am hoping he 
will work with me either on this bill or on other things so 
that I can come to understand that those folks are really 
interested in getting things done instead of just raising the 
goal post one time after another with endless concerns.
    Mrs. Chenoweth. Mr. Jackson, do you feel that Mr. Henson's 
concerns are something that can be pretty easily worked out? 
Has the group been consistently working with Mr. Henson?
    Mr. Jackson. The group has not. One of our environmental 
members has, and my experience in working with Mr. Henson is 
that he is a very reasonable individual, and I do believe that 
there are areas that can come to closure.
    It is going to be a policy decision in the end whether or 
not the extent of this experiment is reasonable, but I will 
tell you one thing. If the experiment is smaller, for instance, 
if we took Louis up on the one ranger district, we can't prove 
anything, and I think he knows that.
    Landscape problems require landscape solutions and when Dr. 
Jerry Franklin came to Plumas County--in one of the five times 
he came to Plumas County to look at the Quincy Library Group 
situation, he made it very clear to us that we could not do 
something small. The problem is large, the solution must be 
large.
    Yes, I think we can work with Mr. Henson, and I have hope 
for Louis.
    Mrs. Chenoweth. Thank you, Mr. Jackson. I want to say, Mr. 
Jackson, that your testimony was shocking to me. It was 
riveting. It was very good, and I guess I just have to say I 
come from the old school where a long time ago, when I moved as 
a young bride to a town in northern Idaho that is a logging 
town, I learned there that decisions in the forest should be 
made by foresters who understood the dynamics of the forest, 
and that with the advent of NEPA and with the advent of the 
implementation of the National Forest Management Act, I was 
suspicious about people on the street making decisions about 
things that happened in the mountains that affected our 
economy.
    I have to tell you very honestly, I am still like a 
thoroughbred horse they are trying to lead into a new stall. I 
am a little jittery about this bill, but I am overwhelmed at 
what you have accomplished, and you have my undying support 
because I believe this is the vision that Gifford Pinchot laid 
out.
    This is the vision that Bruce Vento wanted to see when he 
helped construct some of these original bills so that people in 
the local level would have input.
    I am learning a lot. It is a new day, and I want to truly 
grow with the circumstances, and I have to say that if I heard 
from you every day, my rate of growth would probably be 
straight up. I don't usually get that effusive, but I do want 
to close by saying one thing that I think we are all concerned 
about, Mr. Coates mentioned it, and that is the conflict 
industry. In a report to his board of directors, the Sierra 
Club chairman Michael McCloskey said, in November of 1995, a 
new dogma is emerging as a challenge to us. It embodies the 
proposition that the best way for the public to determine how 
to manage the interest in the environment is through 
collaboration among stakeholders, not through normal 
governmental processes.
    I think he understands the problem. He just doesn't see the 
proper solution yet. He went on to say further, it is posited 
that this is best done at the community level through a 
consensus process. Yes, Mr. McCloskey, this is exactly what we 
are trying to do, and I just want to say to Mr. Herger, to all 
of you, it is an honor to me and I hope that it bodes well for 
us all in this term to be able to see this kind of legislation 
come before this committee as the first legislation, and I hope 
it will set the course for the future.
    Thank you all very much for your very, very interesting 
testimony, and I do want to let you know that the record will 
remain open for any additions or corrections to the record for 
ten days.
    With that, this hearing is adjourned.
    [Whereupon, at 5:10 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

  Testimony of Ryan Henson, Conservation Associate, of the California 
                          Wilderness Coalition

    Dear Madam Chairman:
    Thank you for this opportunity to testify before the 
Subcommittee on Forests and Forest Health of the Committee on 
Resources regarding H.R. 858, the Quincy Library Group (QLG) 
Forest Recovery and Economic Stability Act of 1997.
    The California Wilderness Coalition is an alliance of 
grassroots, regional, and national conservation groups as well 
as businesses and individual citizens from throughout 
California. Our primary purpose is to monitor the management of 
California's public lands, educate the public about their 
importance, and train citizens to become active stewards of 
their own public lands.
    We appreciate this opportunity to provide input on H.R. 
858. While we support most of the goals of the QLG and have 
many valuable friends in the group, there a few parts of the 
bill that we feel should be altered and clarified. What follows 
is a short discussion of each section of H.R. 858 of concern to 
us, as well as specific recommendations for how these concerns 
can be resolved. By adding these recommended changes, perhaps 
you can resolve some of the issues raised by the conservation 
community and more accurately reflect the letter and spirit of 
the QLG agreement.
    Section 2(c)(2): Exception For Designated Catastrophic 
Event Areas
    Discussion: We welcome the recent inclusion of the words 
``catastrophic'' and ``within the pilot project area'' to this 
section. This will both lessen the scope of this otherwise 
dangerous loophole, and prevent roadless areas and a number of 
other important areas supposedly protected by the QLG agreement 
from being logged under the provisions of Section 2(c)(2). 
However, we are very concerned that other ancient forest and 
critical wildlife habitat can still be logged undo this 
provision if these areas experience natural disturbance events.
    Recommendation: Strike the entire section. Or, at the very 
least, change the first sentence in Section 2(c)(2) to read: 
``With the exception of spotted owl habitat areas, spotted owl 
protected activity centers, and areas of late-successional 
emphasis as identified in the Sierra Nevada Ecosystem Project 
Report, the Secretary shall....'' Adding this language would 
necessitate striking ``Except as provided in paragraph (2)'' 
from Section 2(c)(1).
    Section 2(d): Resource Management Activities
    Discussion: H.R. 858 will override many existing 
protections for the affected public lands provided by Federal 
law and policy. For example, the recommendations of the 
California Spotted Owl (CASPO) report are not specifically 
mentioned in the bill. Currently, the CASPO report is the 
primary means by which the ancient forest of the Sierra Nevada 
are protected from the wholesale cutting of the past. Prominent 
members of the QLG have made it quite clear that the resource 
management activities endorsed by the group should be fully 
consistent with CASPO and other applicable Federal laws and 
policies.
    Recommendation: At the end of the first paragraph of 
Section 2(d), add ``consistent with applicable federal law and 
policy.''
    Section 2(d)(1) and (2)
    Discussion: The 40,000-60,000 acres of shaded fuelbreaks, 
individual tree selection, and group selection logging 
authorized by H.R. 858 are, without a doubt, the most 
controversial aspects of the bill. With the exception of the 
acreage figures for the proposed fuelbreaks, there is no limit 
to the amount of logging authorized by this provision. John 
Buckley of the Central Sierra Environmental Resource Center 
estimates that the logging program described in this section 
will at least double the amount of logging allowed on the 
affected public lands. In addition, the logging methods 
mandated by the bill have not been proven scientifically to 
decrease the threat of catastrophic wildfire. We contend that 
it is unwise to mandate such an extensive logging program 
without first having some idea of the ecological, social, and 
fiscal risks, consequences, and benefits involved. At the very 
least, we should cap this logging at the level of cutting the 
CASPO report estimates is acceptable for the affected public 
lands. Not including salvage logging, this includes 47.1 
million board feet (MMBF) for the Lassen National Forest, 49.6 
MMBF for the Plumas National Forest, and 27.5 MMBF for the 
Tahoe National Forest. These estimates are the best scientific 
guide we have of what logging levels are consistent with 
maintaining old-growth forest habitat in the Sierra Nevada. 
Lastly, the acreage figure for the fuelbreaks preempts the 
National Environmental Policy Act analysis process by forcing 
the Forest Service to log at least 40,000 acres per year even 
if, after considering public input and conducting a thorough 
review of the social, ecological, and fiscal impacts of 
implementing the program, they decide that a smaller fuelbreak 
program is more desirable.
    Recommendation: Strike the acreage target in Section 
2(d)(1) for the fuelbreaks and insert in its place ``not to 
exceed the timber volume estimates for the pilot project area 
contained in the California Spotted Owl report.'' At the end of 
Section 2(d)(2), add ``The volume of timber derived from the 
implementation of this provision shall not, when combined with 
the resource management activities described in subsection 
(d)(l), exceed the timber volume estimates for the pilot 
project area contained in the California Spotted Owl report.''
    Section 2(e): Cost-Effectiveness
    Discussion: This provision could potentially allow the 
Forest Service to place budgetary concerns over ecological ones 
to the detriment of clean water, wildlife habitat, and other 
key values.
    Recommendation: Delete the section. Or, at the very least, 
add ``and ecologically desirable'' after ``cost-effective.''
    Section 2(f): Effect on Multiple Use Activities
    Discussion: This section could be interpreted to allow even 
more logging than is authorized in subsection (d).
    Recommendation: At the end of subsection (f), add ``The 
resource management activities described in subsection (d) 
shall constitute the entire timber sale program for the pilot 
project area.''
    Section 2(g)(3): Flexibility
    Discussion: This provision will worsen the existing 
situation on the affected public lands where the needs of the 
timber program often supersedes recreation, watershed 
rehabilitation, fuels treatment, and other worthy programs. If 
Congress supports the pilot program, Congress should allocate 
sufficient funds to implement it.
    Recommendation: Strike the provision.
    Thank you, once again, for this opportunity to review H.R. 
858 and offer recommendations to the Subcommittee about how it 
can be improved.

                                ------                                


     Testimony of Louis Blumberg, Assistant Regional Director, The 
              Wilderness Society, California/Nevada Office

    Thank you Representative Chenoweth and members of the 
Committee for inviting me to testify today. The Wilderness 
Society (TWS) is a national conservation organization devoted 
to preserving wilderness and wildlife, protecting America's 
public lands and fostering an American land ethic. I am also 
submitting this testimony on behalf of the Natural Resources 
Defense Council (NRDC).
    TWS and NRDC support the general goals of the Quincy 
Library Group (QLG). However, in this instance the 
collaborative process has not produced a public consensus. HR 
858 does not adequately reflect the concerns of regional and 
national conservation organizations in California. The bill 
would mandate an experimental logging program that could 
greatly increase logging levels and generate significant 
environmental impacts. Neither the environmental nor the 
economic costs of the bill have been estimated. Fundamentally, 
legislation is not needed to accomplish the objectives shared 
by the QLG and the general public. For these reasons, The 
Wilderness Society, NRDC and 17 other grassroots, regional, and 
national groups are opposed to HR 858.
    I have attached a copy of a letter from the other 
organizations expressing their opposition to the bill to my 
testimony and ask that both be included in the record. These 
other groups are: Sierra Club, Plumas Forest Project, Central 
Sierra Environmental Resource Center, Yosemite Area Audubon, 
Tule River Conservancy, Cal Trout, Klamath Forest Alliance, 
California Wilderness Coalition, Friends of the River, Friends 
of the Inyo, South Fork Mountain Defense, Friends Aware of 
Wildlife Needs, Environmental Protection Information Cener, 
North Coast Environmental Center, Citizens for Better Forestry, 
Willits Environmental Center, and the Mendocino Environmental 
Center.
    The Wilderness Society (TWS) and NRDC support the goals of 
the QLG. As would most Americans, we would like our national 
forests to be healthy, functioning ecosystems, with less risk 
of high intensity wildfire, and where uneven age management was 
used more often; where roadless areas, ancient forest and 
riparian zones are all protected; and that communities 
surrounded by or near national forests be good places to live.
    We recognize the sincere efforts of the Quincy Library 
Group to promote social harmony in the communities of Plumas, 
Lassen and Sierra counties. As the report of the Sierra Nevada 
Ecosystem Project (SNEP) makes clear, like other communities 
near national forests, these in the northern Sierra are going 
through a transition, with timber jobs declining in relation to 
growth in other sectors of the economy. We realize that 
economic transition can be difficult, especially in rural areas 
where the opportunities for new work are fewer than in the more 
populated urban areas. In this light, the QLG has produced some 
meaningful achievements by bringing people in that area with 
different, sometimes opposing views together. The QLG has 
helped to strengthen the social fabric of the area and 
stimulated a dialogue about forest management that has been 
heard far beyond the northern Sierra, and has brought us here 
today to discuss H.R. 858, a bill that is intended to codify 
into federal law the alternative forest management policy 
developed by the QLG.
    The bill does not reflect public consensus: We recognize 
the value of local involvement in resource management and the 
potential for collaborative process. But when dealing with 
natural resource issues, collaborative processes must involve 
all stakeholders, including national and regional interests. As 
the President's Council on Sustainability noted in its report 
last year,
    ``Individuals, communities, and institutions need to work 
individually, and collaboratively to ensure stewardship of 
natural systems. Finding an acceptable integration of local, 
regional, and national interests is not without difficulty. 
Issues involving public lands and marine resources, for 
instance, require that a broad, national perspective be 
maintained.'' (``Sustainable America, a New Consensus,'' 
President's Council on Sustainable Development, 1996, pp. 114-
115)
    When it comes to national land issues, just because one 
group of local people comes to an agreement over how they would 
like the land managed, does not automatically mean that the 
agreement is good or appropriate. Our national forests belong 
to all Americans, and the opinions of some of those fortunate 
to live close a forest should have no more influence than any 
other Americans. Collaboration is about local involvement, not 
local control.
    The bill before the Committee today is seemingly the result 
of a collaborative process based in Quincy, Plumas County, 
California, but despite its characterization as a ``local'' 
process, in fact some of the timber industry participants come 
from as far away as Redding, California, over 100 miles away in 
Shasta County. Though some of them manage private lands in the 
Quincy area, the QLG collaborative process has been limited 
solely to the public lands in the sub-region. Equally important 
is how the private timber lands are managed, yet the 1993 QLG 
agreement and HR 858 are silent on this issue.
    Overall, HR 858 is vague and creates great uncertainty 
about what actually will happen ``on-the-ground,'' though one 
outcome is clear--if enacted, the bill could result in a great 
increase in logging on a vast, two and one quarter million acre 
tract of public land in the northern Sierra Nevada. The serious 
flaws in the bill and its bias towards logging over 
environmental protection demonstrate that this collaborative 
process, to date, has failed to achieve public consensus. The 
broader public interest is not adequately represented in this 
bill, nor has it been in the process, which is why the bill is 
opposed by 19 national, state, regional, and grassroots groups 
throughout California, including local groups in the Sierra 
Nevada and one in Plumas County.
    Federal legislation is not needed: The existing forest 
plans have the flexibility to allow the Forest Service to 
implement the type of management envisioned by the QLG--the 
singular use of uneven age forest management and the 
construction of ``a strategic system of defensible shaded 
fuelbreaks'' (though the latter term is undefined). If, as QLG 
members have repeatedly stated, all activities will be 
consistent with all existing laws, including the CASPO logging 
rules, and subject to analysis under the National Environmental 
Policy Act, then we are unclear why Congress needs to take the 
serious step of codifying the QLG proposal into federal law. In 
addition, a great amount of logging and fuels treatment is 
already going on in the area. In fact, one third of the 
increased appropriations for fuel treatment in California 
approved by Congress last year went to the Quincy area. 
Theoretically, all of these activities are also consistent with 
all laws and the CASPO rules. We urge this committee to 
seriously evaluate the need for federal legislation in this 
instance. We believe legislation is not needed.
    The bill is seriously flawed: HR. 858 has many serious 
problems and is unacceptably vague in many places. The 
Wilderness Society and the other organizations listed above are 
strongly opposed to the bill in its current form. Should the 
bill move forward, we urge the Committee to thoroughly revise 
it to produce a public consensus that provides adequate 
protection for the environment and a compromise that is fair to 
the American people. A discussion of some of the most serious 
problems with the bill follows.
    1. The bill would increase logging dramatically on the 
affected forests. HR 858 would mandate a massive program of 
fuelbreak construction and uneven-age logging resulting in a 
huge increase in logging. Though no analysis has been presented 
by the QLG to inform the public just how great the logging 
levels will be, conservative estimates indicate that the levels 
would at least double, and therefore far exceed the level 
estimated to be sustainable under the forest plans as amended 
by the CASPO policy.
    Moreover, current logging levels on these national forests 
are already at least as great as the levels on any other 
forests in California. Last year, these forests accounted for 
almost 50 percent of all public land logging in the Sierra 
Nevada. The Lassen National Forest cut more timber last year 
than any other national forest in California and exceeded the 
level estimated to be sustainable under CASPO by 44 mmbf. The 
bill will require an enormous increase in logging that could 
cause significant environmental damage. The public has the 
right to know what the logging levels and resulting impacts 
might be, just as Congress has the obligation to understand the 
impacts of HR 858 before proceeding with the bill.
    2. The program would fail to comply with existing 
environmental protections. The bill would effectively override 
any restrictions in existing forest plans that are inconsistent 
with the vague direction in the QLG program. Of great concern 
in this regard is the current CASPO policy adopted by the 
Forest Service in 1993 for the entire Sierra. Neither the 
``fuelbreak system'' nor the group selection harvest technique 
described in the QLG program require compliance with CASPO, 
which is a scientifically-based strategy designed to protect 
wildlife and ancient forest while reducing the risk of 
wildfire. In addition, the bill would override other provisions 
in existing plans that protect wildlife, visual quality, and 
riparian areas. Also, the 1993 QLG agreement, which is 
incorporated into HR 858 by reference, specifically states that 
the QLG program ``will expand the existing landbase available 
for timber production beyond that currently `zoned' for 
production.'' Yet, HR 858 fails to establish a public process 
to accomplish this reallocation of the landbase, which is a 
cornerstone of the National Forest Management Act. Any 
alternative forest management plan must comply with existing 
laws and regulations, including CASPO. All logging should take 
place on the existing timber base.
    3. The bill would mandate implementation of an experimental 
and ill-defined management approach over a vast area of public 
land and for an excessive time period. Neither the ``fuelbreak 
system'' nor group selection techniques are defined in the 
bill, nor has the ``fuelbreak system'' been implemented 
extensively in the Sierra. A QLG paper on fuelbreaks (the 1993 
QLG agreement was silent on fuels issues), ``QLG Fuelbreak 
Strategy,'' acknowledged that issues like ``wildlife or 
riparian corridors,'' ``prescriptions or guidelines for the 
design of fuelbreak projects,'' and ``criteria for decisions on 
which kinds of fuelbreak should have priority,'' all need to be 
addressed, and states that ``[u]ntil these questions, among 
others are adequately addressed at [the] landscape scale, 
fuelbreak implementation, no matter how well conceived and 
planned at the project level, will be overly vulnerable to 
professional and legal challenge.'' Yet the bill fails to 
address any of these issues or to establish a public process 
for doing so. Requiring implementation of these untested and 
ill-defined approaches on millions of acres of public lands for 
a minimum of five years (and possibly longer), regardless of 
the outcome of the pending Cal Owl regional planning process, 
could result in significant environmental harm and is highly 
inappropriate. In addition, although the bill mandates 
reporting on the project's ``benefits,'' it fails to require 
reporting on its environmental and economic costs or on the 
overall effectiveness of the project in reducing fire risks.
    We recommend that the program's management approach be 
defined more clearly and the overall scale of the project be 
reduced significantly. For example, we would support 
implementation of a carefully-designed research project testing 
the application of the new approach on one ranger district with 
appropriate limitations on acreage, timber volume, and timing.
    4. The bill contains a loophole that would eliminate 
protection for sensitive areas. The major environmental benefit 
of the QLG proposal is that it would provide interim protection 
from logging for selected roadless areas, spotted owl habitat 
areas, and protect activity centers. However the bill provides 
a loophole that would allow the Secretary to designate these 
areas for logging whenever there are ``catastrophic 
disturbances from wildfires, insect infestations, disease, 
drought or other natural causes.'' (The bill does not define 
``catastrophic. '') Because these are all natural process in 
forest ecosystems, this provision could be misinterpreted by 
the Forest Service to apply to almost any acre of the national 
forest. This is a major loophole, and history strongly suggests 
that the Forest Service will exploit this exception to deprive 
critical areas of interim protection while undermining the 
environmental benefits of the original QLG agreement. The 
``catastrophic event area'' exception is unacceptable and 
should be eliminated.
    5. The bill circumvents the NEPA and land management 
processes. Although section 2(i) requires the Forest Service to 
initiate a land management plan amendment process in compliance 
with NEPA, it mandates implementation of the QLG program 
without regard to the results of the process. In effect, the 
pilot project will be implemented for a minimum of five years, 
even if the NEPA process mandated by the bill reveals that the 
project will produce unforeseen and/or significant adverse 
environmental impacts. Moreover, the bill fails to establish a 
deadline by which the plan amendment process must be completed, 
so that the pilot project may be implemented indefinitely 
without NEPA review.
    6. HR 858 would preempt the Cal Owl process: The Forest 
Service is currently engaged in a comprehensive regional 
planning process for the entire Sierra Nevada including the 
public lands incorporated into HR 858, in accordance with the 
requirements of NEPA and NFMA. If enacted into federal law, the 
QLG alternative forest management plan would override any 
future administrative decision made through the Cal Owl 
process. Should the Committee proceed, HR 858 should 
incorporate language that would require amendment of the QLG 
program to conform to the subsequent Cal Owl policy.
    7. The fiscal impact is unknown: No cost estimate of the 
program mandated by the bill has been completed. Given the 
agency's difficulty in attracting bids in recent months, 
chances are good that much of the logging mandated by HR 858 
would result in a financial loss to the taxpayers. In addition, 
without an additional line item appropriation, funding for the 
QLG program would need to come from existing programs in the 
Forest Service budget. As with the level of logging, the public 
has the right to know and Congress has the obligation to 
understand the fiscal implications of HR 858 or any other 
legislation before it is enacted.
    The bill has several other problems. The reference in 
section 2(f) to other ``multiple use activities is vague, and 
could be interpreted to allow widespread logging within the 
project area, in addition to the management activities mandated 
by the bill. HR 858 should clearly state that the management 
program required by the QLG proposal would constitute the 
entire timber program for those forests.
    Section 2(e), by requiring use of the most ``cost-
effective'' approach, will encourage the Forest Service to log 
the largest trees (which provide the greatest revenues), rather 
than using more environmentally-sound approaches such as 
thinning and prescribed burning.
    Section 2(g) allows the Secretary to use all funds 
allocated to the affected national forests to implement the QLG 
program, including by implication, funds allocated for 
wildlife, wilderness, recreation, prescribed burning and any 
other forest program. Thus, critical work in these important 
areas could effectively be underfunded or even entirely 
unfunded.
    Because of the magnitude of these problems, TWS and the 
other organizations listed above must oppose HR 858. The 
environmental and economic costs are unknown yet potentially 
quite significant. If enacted, the program mandated by the bill 
could cause serious environmental damage to a vast area of 
public land. In this instance, the collaborative process has 
failed to produce a public consensus because the views of the 
full range of stakeholders have not been adequately represented 
at the library table. Moreover, legislation is unnecessary to 
accomplish the common objectives of the QLG and the broader 
public. We are willing to work with the QLG, the Forest 
Service, and this Committee to develop forest management policy 
that provides adequate protection for our public lands and 
draws broad-based public support. HR 858 does not meet that 
test.
    Thank you again for the invitation to testify today. I 
would be happy to answer any questions you might have.

                                ------                                

    February 26, 1997

    4Senator Barbara Boxer
    Senator Dianne Feinstein
    United States Senate
    Washington, D.C. 20510

    4re: Quincy Library Group Legislation

    Dear Senator Boxer and Senator Feinstein:
    Our organizations have been involved with forest management 
in California for many years at the local, state, and national 
levels. We are writing today to express our concerns about the 
legislation being promoted by the Quincy Library Group and 
Representative Herger. Despite the efforts of some of us to 
work with members of the Quincy Library Group (QLG) to resolve 
our differences, we must oppose the February 7 draft of the 
bill, which is the last version we have seen. Overall, the 
legislation is vague and creates great uncertainty about what 
would actually happen on a vast, two million acre tract of 
public land. If implemented, the program could cause serious 
environmental damage and establish a bad precedent for 
legislating public land management. Some of the most 
problematic provisions of the bill are discussed below.
    1. The bill would increase logging dramatically on the 
affected forests. Current logging levels on these national 
forests are as great or greater as on any others in California. 
Last year, these forests accounted for almost 50 percent of all 
public land logging in the Sierra Nevada. The bill will require 
an enormous increase in logging that could cause significant 
environmental damage and could easily exceed the level 
estimated to be sustainable under the existing CASPO policy.
     The program would fail to comply with existing 
environmental protections. The bill would effectively override 
any restrictions in existing forest plans that are inconsistent 
with the vague direction in the QLG program. Of great concern 
in this regard is the current CASPO policy adopted by the 
Forest Service in 1993 for the entire Sierra. Neither the 
``fuelbreak system'' nor the group selection harvest technique 
described in the QLG program require compliance with CASPO, 
which is a scientifically-based strategy designed to protect 
wildlife and ancient forest while reducing the risk of 
wildfire. In addition, the bill would override other provisions 
in existing plans that protect wildlife, visual quality, and 
riparian areas, and allow for the reallocation of lands without 
adherence to the process required by the National Forest 
Management Act. Any alternative forest management plan must 
comply with existing laws, regulations, and protections.
    3. The bill would mandate an experimental and ill-defined 
management approach over a vast area of public land and for an 
excessive time period. Neither the ``fuelbreak system'' nor 
group selection techniques are defined in the bill, nor has the 
``fuelbreak system'' been implemented extensively in the 
Sierra. In addition, the bill fails to establish a public 
process for determining how and where these management 
approaches will be implemented. A smaller scale experimental 
program designed to scientifically test these methods is 
essential before they are applied on a scale as broad as the 
QLG proposal.
    4. The bill contains a loophole that would eliminate 
protection for sensitive areas. The bill would allow areas 
protected under the QLG agreement of 1993 and areas recommended 
for wilderness protection by the forest plan, to be logged 
after being designated as a ``catastrophic event area.'' This 
loophole effectively eliminates the major environmental benefit 
of the QLG proposal.
    5. The bill circumvents the NEPA and land management 
processes. The bill requires the Forest Service to conduct the 
experimental QLG program without analysis consistent with the 
National Environmental Policy Act on the possible impacts on 
wildlife, riparian areas, and the forest matrix.
    The bill has several other problems. For example, it does 
not take into account the recent information in the report of 
the Sierra Nevada Ecosystem Project that depicts on maps areas 
of ancient forest and key watersheds that it recommends for 
protection. The bill allows any funds allocated to the forests 
to be used for the QLG logging program potentially at the 
expense of the recreation, wildlife and fish, wilderness, 
controlled burning, and all other Forest Service programs.
    Because of the magnitude of its problems, our organizations 
must oppose the QLG bill as currently drafted. If enacted, the 
program mandated by the bill could cause serious environmental 
damage to a vast area of public land. In this instance, the 
collaborative process has failed because the full range of 
stakeholders are not represented at the table. We urge you to 
oppose the bill in its existing form. We are interested in 
working with you and your staff to develop forest management 
policy that provides adequate protection for our public lands 
and draws broad-based public support. We would welcome your 
response through Louis Blumberg, The Wilderness Society, P.O.; 
Box 29241, San Francisco, 94129-0241.
    Sincerely

    Louis Blumberg
    The Wilderness Society
    San Francisco

    David Edelson
    Natural Resources Defense Council
    San Francisco

    John Buckley
    Central Sierra Environmental
    Resource Center, Sonora

    Dan Utt
    Tule River Conservancy
    Poderville

    Dick Kunstman
    Yosemite Area Audubon
    Mariposa

    Barbara Boyle
    Sierra Club
    Sacramento

    Ryan Henson
    California Wilderness Coalition
    Davis

    Neil Dion
    John Preschutti
    Plumas Forest Project
    Blairsden, Plumas County

    Steve Evans
    Friends of the River
    Sacramento

    Sally Miller
    Friends of the Inyo
    Lee Vining, Mono County

    Larry Glass
    South Fork Mountain Defense
    Eureka

    Craig Thomas
    Friends Aware of Wildlife Needs
    Georgetown

    Cecilia Lanman
    Environmental Protection Information
    Center, Garberville

    Brett Matzke
    Cal Trout
    Camp Nelson

    Felice Pace
    Klamath Forest Alliance
    Etna

    Tim McKay
    Northcoast Environmental Centa
    Arcata

    David Drell
    Willits Environmental Center
    Willits

    Betty and Gary Ball
    Mendocino Environmental Center
    Mendocino

    Joseph and Susan Bower
    Citizens for Better Forestry
    Hayfork

                                ------                                


  Statement of James R. Lyons, Under Secretary, Natural Resources and 
                              Environment

    Madam Chairman and members of the Subcommittee:
    Thank you for the opportunity to offer our views on H.R. 
858, the ``Quincy Library Group Forest Recovery and Economic 
Stability Act of 1997.'' I am accompanied today by Regional 
Forester Lynn Sprague, and Supervisors Mark Madrid of the 
Plumas National Forest and Kent Connaughton of the Lassen 
National Forest.
    The Department of Agriculture supports the goals of H.R. 
858. We applaud the work of the Quincy Library Group (QLG) and 
its willingness to enter into a constructive dialogue to make 
the bill workable. We are close to that goal. Just last week, 
Forest Service officals from the Plumas National Forest, 
representatives from QLG, and a representative of Congressman 
Herger sat down to discuss the bill. The discussion was 
constructive and substantial progress was made. However, more 
time is needed to fully consider all of the issues raised by 
the bill before the Administration can fully endorse it.
    Management of the National Forests
    The world is much more complex today than it was even 20 
years ago. And nowhere is that complexity more evident than in 
the management of our national forests. I don't need to belabor 
the challenges we continue to face in satisfying competing 
demands that are placed on this resource. Yet, the prescription 
for management of these forests was laid down 90 years ago by 
the first Chief of the Forest Service, Gifford Pinchot. I would 
like to quote Pinchot because his views are directly relevant 
to the issues we are addressing today. Pinchot believed that 
the key principle in using national forests was management by 
the people. He said:
    National forests are made for and owned by the people. They 
should also be managed by the people. They are made, not to 
give the officers in charge of them a chance to work out 
theories, but to give the people who use them, and those who 
are affected by their use, a chance to work out their own best 
profit. This means that if National Forests are going to 
accomplish anything worth while the people must know all about 
them and must take a very active part in their management. The 
officers are paid by the people to act as their agents and to 
see that all the resources of the Forests are used in the best 
interest of everyone concerned. What the people as a whole want 
will be done. To do it it is necessary that the people 
carefully consider and plainly state just what they want and 
then take a very active part in seeing that they get it.
    There are many great interests on the National Forests 
which sometimes conflict a little. They must all be made to fit 
into one another so that the machine runs smoothly as a whole. 
It is often necessary for one man to give way a little here, 
another a little there. But by giving way a little at present 
they both profit by it a great deal in the end....
    In these few words, Pinchot captured the essence of the 
Quincy Library Group and why Secretary Glickman and this 
Administration believe that QLG is worthy of continued support.
    The QLG, was formed in 1993 by a three-county alliance of 
elected officials, timber industry, workers, union 
representatives, local environmentalists and citizens. The QLG 
has collaborated to resolve longstanding controversies over the 
management of public forest lands on the Plumas, Larsen, and 
the Sierraville Ranger District of the Tahoe National Forest. 
They have developed an agreed upon plan that addresses various 
aspects of forest management including timber salvage sales, 
fire hazard reduction, watershed and riparian area restoration, 
monitoring and forest planning. Most importantly, they have 
followed Pinchot's dictum that compromise is needed to fit the 
pieces into a unified whole crafting a program that is 
generally acceptable to all. In recognition of the importance 
of this effort, Secretary Glickman has prioritized funding for 
these three forests to support forest activities consistent 
with the QLG proposal and forest plan standards and guides.
    The Condition in the Northern Sierra Nevada Range
    Before turning to the specifics of H.R. 858, I would like 
to review briefly the findings of the Sierra Nevada Ecosystem 
Project (SNEP). SNEP was a team of independent scientists 
tasked by Congress with preparing a scientific review of the 
entire Sierra Nevada ecosystem. Their final report was 
transmitted to Congress in June, 1996.
    This team of eminent scientists found that the Sierra 
Nevada range has become highly susceptible to catastrophic 
wildfire. This situation reflects the virtual exclusion of low- 
to moderate-severity fire that has affected the structure and 
composition of most Sierra Nevada vegetation. The resulting 
forests can be characterized as having denser stands, primarily 
in small and medium size classes of shade-tolerant and fire-
sensitive tree species. Fuels have become more continuous from 
the ground through the upper canopy. Selective cutting of large 
overstory trees when combined with the relatively moist and 
warm climate of the 20th Century appears to have reinforced 
this trend by producing conditions favorable to the 
establishment of tree seedlings and other plant species. When 
coupled with the exclusion of fire, most stands in the Sierra 
Nevada range have experienced increased mortality from the 
cumulative effects of competition, drought, insects, disease 
and, in some cases, ambient ozone air pollution. This has 
created conditions favorable to intense and severe fires that 
are more damaging to the ecosystem, are more expensive to 
suppress, and pose a greater threat to life and property.
    The SNEP report describes a number of approaches to reduce 
the susceptibility of the the Sierran range to catastrophic 
fire. These include substantially reducing the potential for 
large high-severity wildfires in both wildlands and the 
wildland/urban intermix, and restoring historic ecosystem 
functions of frequent low- and moderate-severity fire. This can 
be accomplished by establishing defensible fuel profile zones 
characterized by relatively large trees with considerable 
diversity in ages, sizes, and distributions of trees. The key 
feature would be the general openness and discontinuity of 
crown fuels; both horizontally and vertically. Once these zones 
have been established, a program of prescribed fire could then 
be introduced restoring the historic fire regime.
    Contents of OLG Proposal
    The Quincy Library Group Forest Recovery and Economic 
Stability Act of 1997 would direct the Secretary of Agriculture 
to conduct a pilot project on designated lands of three 
National Forests--the Plumas, Lassen and portions of the Tahoe 
National Forests. The purpose of the pilot project is to 
demonstrate the effectiveness of the resource management 
activities directed in the bill. These activities are: (1) 
construction of a strategic system of defensible fuel breaks on 
not less than 40,000 but not more than 60,000 acres per year; 
and (2) implementation on an acreage rather than volume basis, 
of uneven-aged forest management prescriptions utilizing 
individual tree selections and group selections to achieve a 
desired future condition of an all-age, multi-story, fire 
resistant forest.
    The pilot project would terminate on the later of the 
following: 5 years after date of enactment of this bill or when 
the land resource management plans for the three forests have 
been revised or amended as appropriate.
    This proposal, in effect, would implement key aspects of 
the management regime laid out by SNEP. Although much of this 
bill could be implemented administratively, we see substantial 
merit in testing these strategies. We also believe we can learn 
from this pilot and that our work with QLG can serve as a model 
for other communities in addressing local concerns without the 
necessity of site-specific legislation.
    Concerns With the Bill
    Upon a first reading of the bill, we recognized a need to 
clarify its language. We were concerned that the bill could be 
read as exempting pilot project activities from the 
requirements of various environmental laws such as the National 
Environmental Policy Act, the National Forest Management Act, 
and the Clean Air and Water Acts. Additionally, we believed the 
bill should explicitly state that any pilot project must also 
be consistent with guidelines for the management of the 
California Spotted Owl (CASPO). We did not see how this 
proposal could serve as a true demonstration if these 
conditions were not met. We have been assured by 
representatives of QLG and Congressman Herger that this is was 
their intent. They have agreed to language that would make 
clear that existing laws must be followed along with CASPO 
guidelines.
    We were also concerned that the procedures for designating 
catastrophic event areas were not in compliance with current 
policy for public notice and comment under NEPA regulations. We 
were assured this was not intended and have reached agreement 
on language to cure this problem.
    Additionally, we believe the pilot program should be 
subjected to a science-based evaluation at the mid-point and 
conclusion of the program. This evaluation should help to 
determine if the assumptions underlying the program activities 
are valid. We also have remaining concerns with the funding 
provisions in the bill. In short, we already have the authority 
to allocate funds and, if necessary, reallocate, under the 
guidelines of the Appropriations Committees. We will continue 
to support the QLG effort at the maximum level within the 
constraints of overall funding resources. We have proposed 
several funding areas in the FY 1998 budget that, if enacted, 
could increase the overall level of resources available for the 
QLG program and similar work in other National Forests with 
similar fire prone characteristics.
    Specifically, the FY 1998 budget proposes a significant 
increase in fuels management under our wildland fire management 
proposal. This proposal would make fuels management a 
significant part of the overall fire management program and 
would balance the resources necessary to achieve long term 
savings in fire suppression costs. We have also proposed 
increases for timber stand improvement activities and forest 
vegetation management. And finally, we will shortly share with 
you a legislative proposal to crate a new permanent fund, 
called the ``Forest Ecosystem Restoration and Maintenance 
Fund''. If enacted, this fund would also provide additional 
resources for reducing fire hazards and improving the structure 
and health of timber stands. I hope that you will support these 
proposals, and recognize that without additional resources for 
the types of activities the QLG bill prescribes, reallocation 
within a fixed overall budget is an inevitable requirement. 
Such a reallocation can have unintended consequences for other 
resources in our national forests.
    Summary
    During the Forest Conference in April, 1993, President 
Clinton challenged natural resource dependent communities to 
develop collaborative and locally-based solutions to 
controversies surrounding public land management. The science-
based assessment commissioned by Congress recommended 
implementing programs that reduce the potential for 
catastrophic fires. The QLG is an exemplary illustration of 
democratic processes at work in achieving these goals. The 
pilot program has the potential to enhance the health and 
productivity of the affected national forests, to help those 
communities that depend on these forests for their well being 
and, perhaps most importantly, to demonstrate that these 
forests can be managed in a way that satisfies the needs of 
broad cross-ection of forest users. For these reasons, the 
Administration in committed to working with the Committee, QLG, 
and other interested parties to move forward with this pilot 
program.
    This concludes my prepared remarks. My colleagues and I 
will be pleased to answer your questions.

                                ------                                


Statements of Thomas C. Nelson, Director of Timberlands, Sierra Pacific 
                               Industries

    Good afternoon, Madame Chairman and Members of the 
Subcommittee. My name is Tom Nelson. I am a forester for Sierra 
Pacific Industries in Redding, California, and am here today as 
a founding member of the Quincy Library Group (QLG). It is our 
hope that you will help us implement the proposals of this 
group by supporting the QLG bill recently introduced by 
Congressman Herger, HR 858.
    I would like to take this opportunity, for the record, to 
thank a number of people for their invaluable assistance. 
First, I wish to thank Mr. Herger for his leadership in 
carrying our bill. Next, I would like to thank Secretary of 
Agriculture Glickman and Undersecretary Lyons for their 
continued support (especially their financial support) of the 
silvicultural prescriptions described in the Quincy Library 
Group's Agreement of 1993, which has been accurately translated 
into HR 858. I would also like to acknowledge and thank both 
Senators Feinstein and Boxer for their ongoing efforts to 
introduce a similar bill in the Senate.
    The ideas embodied in HR 858 actually started in November 
of 1992 when the three of us sitting here at this panel met 
together for the first time. It was a most unusual meeting and, 
between the three of us, we brought to the table a complete 
spectrum of opposing viewpoints on National Forest management 
issues in California. And yet, we soon found that we also 
shared a number of common viewpoints--we all care deeply about 
the stability and wellbeing of our communities, our forested 
surroundings, and the legacy we leave to our children and 
grandchildren. Moreover, we all agree that the current 
management strategies of the US Forest Service for this part of 
California are unacceptable to each of the diverse viewpoints 
we represent--``business as usual'' will not meet anyone's 
needs.
    After several of these initial meetings with just the three 
of us, we decided to expand our discussions and bring in more 
ideas and participants - we wanted to see if others in the 
community shared our concerns. It soon became apparent that we 
shared with other community members not only a common set of 
concerns, but a common set of remedies. And when I use the term 
``we'' in this case, I do not refer to just others within the 
forest products industry. ``We'', in the context of the Quincy 
Library Group, means loggers, local environmental leaders, 
teachers, county government, organized labor, ranchers, road 
crews, fly fishers, biologists, and even retired airline pilots 
who have developed an interest in fuels management strategies. 
Given this strong community support, we soon developed and 
agreed upon the QLG Agreement of 1993. In many respects, this 
was our response to President Clinton's request at the Portland 
Forestry Conference--to ``insist on collaboration, not 
confrontation''.
    A central issue that binds us together is befitting our 
appearance today before this Subcommittee. That overarching 
issue is our concern for the health of the National Forests 
which surround our communities. We are deeply concerned with 
the very real and very ominous risk for catastrophic wildfires 
within these forests. To demonstrate this, I'd like to call 
your attention to a position paper the Quincy Library Group put 
out some time ago, which is attached to your copies of my 
testimony. In this paper, we have tried to show that the 
present explosive situation--the potential for significant, 
catastrophic wildfires--is getting worse, not better. At the 
current pace (without implementation of the QLG bill) it will 
take these forests 180 years before they even begin to reverse 
this trend.
    The Quincy Library Group has designed a comprehensive 
strategy to combat the rising risk of catastrophic wildfires--
that strategy is included in the actions authorized in HR 858. 
The prime objective of our initial strategy is to isolate 
individual watersheds (8-12 thousand acres each) with ``shaded 
fuelbreaks''. These fuelbreaks would be designed as quarter-
mile swaths that are thinned along ridgetops and major roads. 
They are not the bare? ground fuelbreaks commonly associated 
with powerlines and gas lines. Our intent is not to stop major 
fires as they hit these fuelbreaks, but to force the fire down 
out of the crowns of the trees so that firefighters have a 
better chance to control it. Put another way, our goal is not 
to stop the occurrence of wildfires (that's not realistic in 
the lightning-prone Western states) but to hold them to 10 
thousand acres, not 150 thousand.
    Even using our strategy, it will take the US Forest Service 
20 to 30 years to completely reverse the current wildfire risk 
trends, but the existing risks can be significantly reduced 
after five years with implementation of HR 858. While we 
understand that several urban-based environmental groups have 
criticized our proposals as being ``too large'' in scope for 
their liking, those of us who live next door to these fuel-
laden forests cannot accept a slower pace and higher risks. The 
enormity of this problem, and the severity of its consequences, 
demands an immediate and comprehensive plan. We have looked at 
other ideas, including the ``status quo'', and we believe that 
the QLG proposal is the best, most effective response possible. 
In light of the forest health conditions throughout the West, 
we do not see our proposals as ``too large''.
    By now it is probably quite obvious why a forest products 
company that is determined to stay in California might enter 
into negotiations like those of the Quincy Library Group. 
Implementation of HR 858 would mean five years of economic 
certainty as merchantable materials are removed on 50 thousand 
acres of National Forest land each year to stay on track with 
the QLG fuelbreak objectives. From the standpoint of a 
privately held, family-run business in California (with 12 
sawmills and 3000+ employees) it is this type of certainty 
which encourages investments in rural communities. It is 
distinctly different from the existing policies for management 
of the National Forests in the West, whereby investment 
decisions must be based on expected outputs that change weekly, 
sometimes daily, and rarely change for the better.
    The QLG proposals embodied in HR 858 have received a 
certain amount of criticism recently, most notably from 
national preservation groups. I would urge you to study these 
criticisms in light of the growing fear these urban- based 
groups seem to have toward coalitions which include their 
locally-based affiliates. We welcome the support of any and all 
of these nationally-based groups in our pursuit to pass HR 858. 
To that end, I should point out that we have suggested numerous 
changes to the original language of the Quincy Library Group 
bill already. These changes were made prior to the formal 
introduction of HR 858 by Congressman Herger and all the other 
sponsors, and were at the request of national, urban-based 
environmental groups as well as representatives of the US 
Forest Service.
    We have tried to accomodate these groups, and will continue 
to work with anyone dedicated to the implementation of our 
proposals. But we cannot agree to changes that would jeopardize 
the original intent and integrity of our 1993 agreement, and we 
hope that you will be cognizant of this as HR 858 goes through 
mark-up, amendment proposals, and hearings.
    Thank you very much for this opportunity. I urge your 
support of this bill, so that we might begin the long, uphill 
road to restoration of forest health within the boundaries of 
the Quincy Library Group. We are eager to begin.

                                ------                                


                  FUELS MANAGEMENT FOR FIRE PROTECTION

                  QUINCY LIBRARY GROUP POSITION PAPER

    ``The fire regime has changed from frequent, low intensity 
fires to infrequent, high intensity stand replacement fires'' 
(CASPO Interim Guidelines, U. S. Forest Service, 1993)
    ``Extreme fire behavior and resistance to control will be 
the norm, rather than the exception.'' (Regional Forester, U. 
S. Forest Service R-5, July 1992)
    BACKGROUND
    Decades of aggressive fire suppression and other recent 
activities have changes fire regime of the forests in the 
northern Sierras. Fire history studies in the Sierras show that 
the frequency of relatively low intensity fires ranged from 5 
to 30 years in the mixes conifer and eastside pine forests.
    For example. consider the effect on approximately 935,000 
acres in the Plumas National Forest. If you assume an average 
pre-European settlement fire frequency of 20 years, it implies 
that 47,000 acres would have burned each year. In contrast, 
dunag a recent 20-year period 4,100 acres per year were 
actually burned on the Plumas
    Until recently this 90% reduction of acreage burned per 
year was considered a measure of great success for the fire 
suppression policy. Unfortunately, we are now being awakened to 
some hard facts:
    <bullet>The pre-European settlement fires were of low 
average intensity, while recent fires burn at very much higher 
and increasing average intensity.
    <bullet>High intensity translates to high costs for initial 
attack, higher costs for sustained attack on more numerous and 
larger escaped fires, and very high costs for loss of tangible 
and intangible assets in the forest and communities.
    <bullet>The long-term effect of fire suppression is an 
accumulation of fuels and the growth of too many understory 
trees of a species that is not fire adapted for long-term 
health in that location given climatic variability. These fuels 
and fire ladders are certain to support increasing numbers of 
large fires and certain to result in catastrophe unless the 
fuel is reduced and the understory is thinned.
    FIRE COSTS
    The Forest Service fire suppression program is paid for in 
two main categories: Fire Protection (FP) and Fire Fighting 
(FF). FP funds are for the basic costs of equipment and 
personnel, while FF funds support the emergency expenses of 
actually fighting a fire. Recent FF expenditures on the Plumas 
Forest have ranged from $0.5 to $9 million per year (Figure 1).
[GRAPHIC] [TIFF OMITTED] T0051.001

    Figure 1. Plumas National Forest wildfire suppression 
program costs.
    The occasional spike in the graph cawed by one or two large 
fires that occur every few years is even more significant than 
average yearly costs on a single Forest like the Plumas. (Table 
1) These spikes in the cost line are the equivalent in FF terms 
to the Regional Forest's statement, ``Extreme fire behavior and 
resistance to control will be the norm rather than the 
exception.''
    Table 1. Summary of costs associated with recent Plumas 
National Forest wildfires.
[GRAPHIC] [TIFF OMITTED] T0051.002

    Another factor that contributes to the rising trend in 
total fire costs is the movement of more and more people into 
the Sierras. Inevitably more people mean more sources of 
ignition, greater loss of assets and risk to life when a fire 
escapes control, and the necessity for diversion of fire-
fighting resources from the forest to the urban interface when 
catastrophe threatens. The actual cost of wildfire goes well 
above and rises steeper than the Forest Service shows in its FP 
and FF accounts.
    Unless the trend toward larger and more intense fires is 
turned around, it is inevitable that a conflagration of 
multiple out-of-control fires will overwhelm any fire fighting 
capability that we can afford or are likely to provide. Damage 
in that fire will be on a scale such that neither the forest 
ecosystem nor the communities that depend on it will be likely 
to recover during a single lifetime.
    FUELS MANAGEMENT
    The Forest Service now acknowledges that its focus on fire 
suppression has led to three specific hazards:
    1. The accumulation of a large fuel overload on the ground.
    2. Crowding of small trees in the understory, creating a 
fire ladder that carries ground fire into the crowns of large 
trees, thus converting ordinary fires into stand-destroying 
fires.
    3. Invasion of the understory by excessive numbers of 
shade-tolerant trees (principally white fir), which dominate 
the competition for nutrients and soil moisture,

thereby adding the mortality of large trees to the fuel load 
and making the overstory trees even less able to survive crown 
fires.
    These hazards can be reduced only by reducing the load of 
dead and dying fuel and by thinning the understory. 
Unfortunately, to date the Forest Service program for fuels 
reduction in these forests has been only a token effort at 
best. For example, since 1982 the Plumas National Forest has 
treated about 600 to 900 acres per year under its ``natural 
fuels'' program as part of fire protection, and another 4,500 
acres per year under the ``brush disposal'' program associated 
with timber harvest. At that rate it would take about 180 years 
to work through the whole forest.
    But given that fact, how can the fuel load ever be reduced 
and the unterstory thinned at a rate which will significantly 
change our current inevitable course toward catastrophe?
    The simple answer is that we have no other choice. It isn't 
a question of whether, but of how, where, and when to begin the 
Fuel treatments. Do we start to work on this pre-catastrophe or 
post-catastrophe?
    A more realistic answer is we know the job can be done 
because in many pervious years the amount of material that 
needs to be removed actually has been removed. The main 
difference is this: In previous years most of the material 
removed was in logs from the largest trees, leaving behind most 
of the logging slash to add to the fuel load, while in future 
years, say for the next 30 or so, most of the material must be 
removed as small logs from understory trees, and biomass, thus 
reducing the fuel load, not adding to it.
    A thirty-year fuels program is not a very attractive 
proposition; it is not adequate given the ``catastrophic'' 
threat and it is not realistic to count on sustaining public or 
political interest in a ``crash'' program of that length. 
Fortunately, Quincy Library Group (QLG) can offer a 
considerable improvement on the bare-bones 30-year program.
    The QLG proposes that all sales should laid out in patterns 
that are fully intended with natural fuels treatments in a 
strategic fire protection plan.
    STRATEGY
    1The QLG strategic fire protection plan has three 
requirements:
    1. Four years of very high priority.
    2. During those four years, natural fuels treatments and 
sales of thinnings, salvage, and biomass should be done in 
strips of approximately quarter-mile width according to a 
prescription that makes these steps defensible fire lines, 
meets the intent of CASPO (Califomia Spotted Owl) guidelines, 
and does the least possible damage to other ecosystem values.
    3. The acreage treated each year should be at least l/32 of 
the total forest.
    In practice the strips (similar in concept to shaded fuel 
breaks) should follow ridge lines, valley bottoms, and 
convenient roads in a pattern that would isolate all major 
watersheds (average size of 10 to 12 thousand acres) within the 
four years.
    The intent of the CASPO guidelines would be met because 
they are based on the concept that intense wildfire is a major 
short-term threat to owls (and by implication to other wildlife 
and ecosystem values). Under the QLG strategy there is maximum 
protection with mimimum disturbance to owls or other ecosystem 
components because: (1) almost all of the treated strips would 
be along existing roadways, (2) lower density of snags and 
large down woody debris within the strips could be compensated 
for by leaving more of those materials farther off roads during 
subsequent treatments in those areas, and (3) the included 
roadways would permit efficient removal of the materials with 
minimal disturbance.
    After four years, with a network of fundamental protection 
in place, a somewhat different long-term strategy would be 
phased in: you could continue to use strips to divide large 
areas or areas with high value and/or great fire risk, but most 
of the remaining forest would be treated more efficiently in 
areas, not strips. In either case, fuels treatment should 
continue at the rate of at least 1/32 ofthe forest area each 
year.
    CONCLUSIONS
    What we have lait out are three possible courses:
    1. Do nothing different, just wait for ``the big one''.
    2. Increase fuels work, but follow conventional practice 
that limits strategic placement of fuel breaks to what you can 
accomplish under the ``natural fuels'' budgets, and confines 
other fuel removal to sales areas designated in the 
conventional manner. This would eventually get the job done, 
but in scattered units that for many years would protect very 
little area except the actual acres treated.
    3. Increase fuels work, and do both ``natural fuels'' 
treatment and timber sales in patterns and under prescriptions 
that support the QLG Strategic Fire Protection Plan. That is, 
the sales would be based on understory thinning and biomass 
removal in a network of strips. This will more quickly reduce 
the risk of catastrophic wild-

fire, and at the same time make suppression efforts against the 
remaining fires more effective and less costly.
    The differences among these three cases can be illustrated 
by three lines on a graph of cost trends over time (Figure 2).
[GRAPHIC] [TIFF OMITTED] T0051.003

    Figure 2. Relative cost for three fuels treatment 
strategies.
    In Figure 2, relative costs are scaled to reflect an 
assumption that the FP cost remains constant for the whole 
period.
    Curve #1 shows no change of strategy. Fire suppression 
costs, and the loss of forest and non-forest resources 
continues to rise. The only likely break would be a huge spike 
when ``the big one'' occurs, followed perhaps by subsidence to 
a level that would support fire protection for a moonscape 
forest.
    Curve #2 represents the shape to be expected if Fuel 
Treatment (FT) work is done in a way that follows historic 
precedent. It would initially cost money that cannot be saved 
by immediate reduction of other fire protection costs and fire 
losses. Eventually, however, these costs and losses would be 
reduced far enough that total cost would fall below the ``no 
treatment'' projection, and from then on a continuing return on 
investment would be achieved. Until most of the forest had been 
treated, there would not necessarily be many connections among 
treated areas, so for at least the first half of the period any 
reduction in FF or Loss costs would be gradual, and there would 
be only gradual reduction in the risk of catastrophe.
    Curve #3 is the shape we believe the QLG strategy would 
produce. Again you have to add Fuel Treatment (FT) costs at 
first, but a network of treated strips would reduce the average 
size of large fires and facilitate the fighting of smaller 
fires, so the reduction of fire costs and fire losses would be 
earlier and steeper, with a quicker crossover to profit on the 
investment, and much earlier and more significant reduction in 
the risk of catastrophe.
    BOTTOM LINE
    There is a strong temptation to avoid the initial cost of 
fuels reduction and understory thinning, because it is not easy 
to show that a particular catastrophic fire could actually be 
avoided. On the other hand, we can't escape the certainty that 
our current course leads inevitably to catastrophic fire.
    It's a classic case of ``Penny Wise Pound Foolish''. We can 
easily look thrifty in the short run by avoiding the ``penny'' 
of immediate cost to implement the QLG strategy. But that won't 
look so wise when a catastrophe hits that could otherwise

have been avoided or made smaller by spending those early 
pennies on fuel reduction. At that point it will look foolish 
indeed to be spending many ``pounds'' on futile efforts to 
suppress the conflagration.

                                ------                                


 Statement of Bill Coates, Plumas County Supervisor; Past President of 
the Rural Counties of California; the County Supervisors Association of 
     California; and the 16 Western States Supervisors and County 
 Commissioners Association within the National Association of Counties

    Dear Members of the Committee:
    My statement can be encapsulated within three statements: 
We attended. We listened. We attempted to do.
    We attended President Clinton's Northwest Forest Summit 
Conference in Portland at his invitation.
    We listened when he told us to get out of the courtrooms 
and into the meeting rooms to work out our differences locally. 
We listened when we were told that if we would just get on the 
same songsheet, (the environmental community and the logging 
community) that the USFS could act on our plan.
    We came back from Portland and attempted to follow 
President Clinton's request. We asked questions, studied, 
argued, studied, debated, and finally agreed. We used the 
environmentalist's ideas about land base and silvicultural 
methods, for which they had action brought against the USFS to 
force implementation. We mixed in the forestry methods of the 
Collins Pine Company, where we had 80 years of solid ``on the 
ground'' proof of forest health results. We asked for the best 
science available and put it in the plan. We walked away from 
salvage logging where it broke our agreement. We opened up our 
meetings to all and asked for a solid impartial monitoring 
plan. We adopted SAT guidelines for riparian areas, folded in a 
stream restoration element that is drawing acclaim visitors 
from around the world, and helped design the DFP2 system called 
for in SNEP to reduce the loss of species, old growth areas, 
and habitat to increasing frequent catastrophic wildfire 
events. This litany could go on.
    We feel like we have come to Congress and to the President 
with an incredible gift. Instead of gold bars, it is an 
agreement. It is what was asked of us.
    The rest is up to you. Will you hesitate, study, endlessly 
temporize and debate? Or will you seize the opportunity this 
gift affords you, and act decisively to begin returning our 
forests to healthy conditions, with stable communities and a 
broad national public support as a very desirable by-product?
    In addition to answering our declining forest health 
condition, as outlined in the Sierra Nevada Ecosystem Project, 
there is another important condition at risk here. It is the 
condition of the decision making process.
    If this local grassroots effort at solving problems isn't 
acted upon, after having been requested at the highest level, 
then what other collaborative effort will want to proceed? 
Other groups will know of our 750 meetings, the loss of family 
time and personal expense, the agony of bureaucratic process 
and the ecstasy of fire and fuel and stream restoration and 
monitoring and better recreation and cleaner air and more water 
production and healthier animal and plant populations almost--
almost coming together. Our advice would have to be, ``Don't 
even start.''
    Finally, I'd like to thank this committee with your 
patience for our bipartisan nature. As you know we aren't 
liberal or conservative, Democrat or Republican, but rather a 
mixture of all. Our process is exactly what is described in 
every political campaign for federal and state office, and then 
not too often seen again ``on the streets.'' I would especially 
like to thank Congressmen Herger, and Fazio, Senator's 
Feinstein and Boxer, Secretary of Agriculture Glickman, Deputy 
Secretary of Agriculture Rominger, and Under Secretary for 
Natural Resources and Environment Lyons for their support. 
Their encouragement at key points in time when we have tired, 
was crucial.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T0051.004
    
    [GRAPHIC] [TIFF OMITTED] T0051.005
    
    [GRAPHIC] [TIFF OMITTED] T0051.006
    
    [GRAPHIC] [TIFF OMITTED] T0051.007
    
    [GRAPHIC] [TIFF OMITTED] T0051.008
    
    [GRAPHIC] [TIFF OMITTED] T0051.009
    
    [GRAPHIC] [TIFF OMITTED] T0051.010
    
    [GRAPHIC] [TIFF OMITTED] T0051.011
    
    [GRAPHIC] [TIFF OMITTED] T0051.012
    
    [GRAPHIC] [TIFF OMITTED] T0051.013
    
    [GRAPHIC] [TIFF OMITTED] T0051.014
    
    [GRAPHIC] [TIFF OMITTED] T0051.015
    
    [GRAPHIC] [TIFF OMITTED] T0051.016
    
    [GRAPHIC] [TIFF OMITTED] T0051.017
    
    [GRAPHIC] [TIFF OMITTED] T0051.018
    
    [GRAPHIC] [TIFF OMITTED] T0051.019
    
    [GRAPHIC] [TIFF OMITTED] T0051.020
                                       
                                       <all>

</pre></body></html>
